                                                                                                     +'~' o.-co
                                            ·,,,, .!   U.S. DEPARTMENT OF COMMERCE               l"'          "'·\
                                                                                                 "                   ...
                                                                 Office ofInspector .General




                                                              National Institute ofStandards
                                                                             and Technology


                                                                 California Manufacturing
                                                                   Technology Consulting
                                                               MEPAward 70NANB5H1181

                                                                         Final Audit Report No. DEN-18572
                                                                                                 July 2010




                                                                          Denver Regional Office ofAudits
, .1;            1·:. ;-          - ~·:·~-· ·r~-·-
~   .....   ""     - ·- ··   ·~   ·- ·   - -·- -·
U.S. Department of Commerce                                                                                  Final Report No. DEN- 18572 

Office of Inspector General                                                                                                    July 2010 




                                                                 CONTENTS


Introduction ..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 2 

           I.         Questioned Costs .................................................................................................... 2 

                      A.     Questioned Subrecipient Costs........................................................................ 2 

                      B. Questioned Third-Party In-Kind Contributions ............................................... 3 

                      C. Recipient's Response....................................................................................... 5 

                      D. OIG Comments ................................................................................................ 7 

           II.        Undisbursed Program Income ............................................................................... 10 

           III.       Recommendation .................................................................................................. 10 

Summary Results of Financial A udit.. .......................................................................................... II 

Appendix A: Objectives, Scope, and Methodology ...................................................................... 12 

Appendix 8 : Summary of Source and Application of Funds ....................................................... 14 

Appendix C: Summary of Financial/Compliance Audit ............................................................... 15 

Appendix D: CMTC Response to Draft A ud it Report... ............................................................... 16 





                                                                                                                                                         I ··
                                                                                                                                                         !
U.S. Department of Commerce                                             Final Report No. DEN- 18572 

Office of Inspector General                                                               July 2010 


                                        INTRODUCTION

In September 2005, the National Institute of Standards and Technology (NIST) awarded
Manufacturing Extension Partnership (MEP) Cooperative Agreement No. 70NANB5HII81 to
California Manufacturing Technology Consulting (CMTC) to continue operation of an existing
MEP center, with approved fund ing for the period of July I, 2005, through December 15,2005.
The award was subsequently amended to provide fo r a 12-month performance period through
June 30,2006, and again to extend the award period for an additional 12 months, through
June 30, 2007. Total estimated costs for the 24-month period were $59,946,418, with the federal
government's share not to exceed $ 19,963,806, or 33 percent of allowable proj ect costs.

In April 2007, the Office of Inspector General (OIG) initiated an audit of costs claimed by
CMTC to determine whether the recipient complied w ith award terms and conditions and with
NIST operating guidelines for MEP centers. The audit covered the 2 1-month period of July 1,
2005, through March 31, 2007, during which time the recipient claimed total project costs of
$46,070,804 and received federal reimbursements totaling $15,355,400. In addition to examining
c lai ms for costs incurred by CMTC, we examined the cost claims of one subrecipient and five
third-party in-kind contributors.

As stated in appendix A, the objective of our audit was to determine whether CMTC reported
costs to NIST, includ ing costs incurred by its subrecipient, that were reasonable, allocable, and
allowable in accordance with applicable federal cost principles, cooperative agreement terms and
conditions, and NIST policy, including the MEP Operating Plan Guidelines (dated March 2005).
In our opinion, CMTC's claims included unallowable costs. Amounts questioned in this report
reflect the results of our analyses.

On January 29, 20 I0, CMTC provided a written response to our November 30, 2009, draft
report. We summarize CMTC' s response in the appropriate sections of this report and have
attached it in its entirety (exclud ing su pplemental supporting data) as appendix D.
U.S. Department of Commerce                                               Final Report No. DEN-18572 

Office of Inspector General                                                                 July 2010 


                              FINDINGS AND RECOMMENDATIONS

Our audit questioned $11,384,182 ofthe $46,070,804 claimed. Questioned costs include
$4,800,000 claimed for CMTC's subrecipient Cerritos Co llege, for which the college could not
document actual costs incurred under its subaward, and $6,584, 182 in claimed in-kind
contributions from five outside organizations, for which CMTC could not provide evidence that
the contributions met minimum MEP requirements.


I.   Questioned Costs

A.   Questioned Subrecipient Costs

 CMTC's claim of$4,800,000 for costs incurred by subrecipient Cerritos College was not based
 on actual costs incurred by the college under its subaward, but rather on a calculation of a
 maj ority of costs incurred by the college's Technology Division. CMTC and Cerritos College
 had agreed that the college wou ld provide s upport to CMTC's development and outreach
 programs for local manufacturing businesses; however, it was determined that that the
Technology Divis ion's cosmetology program was not related to manufacturing and could not be
 part of the MEP subaward. Therefore, the program's identifiable direct c9sts of -              were
excluded from claims to CMTC. Technology Division salaries are not allocated by program, but
an analysis by the college found that cosmetology instructors accounted for about. percent of
salary costs. T o be conservat ive in its estimate, the college excluded from its subaward claims
• percent of the d ivision's salary and benefits costs, or - · Finally, the college reduced
total expend itures by -        o remove advertising costs from its claim. T he Technology
 Division's total expenses during the subaward period were -               ; as a result of the
 reductions from total division expenditures, estimated s ubaward costs w e r e - ·
However, CMTC's approved award budget for the Cerritos College subaward was $4,800,000,
so CMTC limited its cost claims to this amount.

C MTC's and Cerritos College's practice of claimi ng s ubaward costs based on est imates, rather
than actual costs incurred under the subaward, violates several administrative princ iples
contained in Title 15 of the Code of Federal Regulations (CFR), § 14.21. These principles are
incorporated into CMTC's cooperative agreement with N IST and fl ow down to the college,
pursuant to 15 CFR § 14.5. Specifically, the college's accounting system must provide

        • 	 accurate, current, and complete disclosure of the financial results of each federally
            sponsored project or program (§ 14.2 1(b][ l ]);
        • 	 a comparison of outlays with budget amounts for each award (§ 14.2 1[b][4]); and
        • 	 written procedures for determining whether costs are reasonable, allocable, and
            allowable in accordance with applicable cost principles and the terms and condit ions
            of the award(§ 14.2 I [b][6]).


Cerritos College's claims fail to disclose current fi nancial results of the subaward accurately and
completely because they are based on an estimate, rather than actual costs incurred. And because
the claims do not reflect actual subaward costs, these costs cannot be reviewed to determine


                                                 2

U. S. Depa rtment of Commerce                                                         Final Report No. DEN-18572 

Office of Inspector Genera l                                                                            July 2010 


whether they are reasonable, allocable, and allowable. Although the subaward has a line-item
budget, it does not appear that CMTC and its subrecipient used the budget as a management tool
because subaward claims were based on broad categorical reductions from total division costs,
rather than accumulations of actual costs according to budgeted line items.

We also found the subaward agreement between CMTC and Cerritos College Jacked certain
elements required by NIST's MEP Operating Plan Guidelines. The guidelines require that the
subaward document list the Catalog of federal Domestic Assistance category under which the
prime award was made, the prime award number and performance period, and the federal
awarding agency. The Cerritos College subaward mentioned only NIST/MEP as the federal
awarding agency. In addition, the guidelines require the agreement to state applicable flow-down
prov isions and clauses from the prime award. These would include related administrative and
cost principles, neither of which was incorporated into the subaward document.

Given that the claims related to the Cerritos College subaward were not based on actual costs
incurred under the subaward, and given the other deficiencies we identified, we question the
entire $4,800,000 ofCMTC's c laimed project costs.

B.   Questioned T hird-Party In-Kind Contributions

CMTC's cost claims included -                 in third-party in-kind contributions from a total of 11
contributors. We selected a nonstatistical sample of five contributors, accounting for $6,5 84, 182
in contributions, for further ana lysis. (See table 1.)

                  Table 1. Audit Sample of In-kind Contributors

                                                                                                 Contribution
                  Contributor                                              Location                 Claimed
                                ii;;;;;;;;;;iiiiiiiiiiiiiiiiiiiiiiiiiiii




                                                                                                      -
Source: CMTC documents

We found several defi ciencies connected to these claims. None of the claims were for donations
of goods and services to CMTC; rather, they represented costs incurred by the third-party
organizations in the course of their regular activities. Also, none of the claims met the minimum
requirements for in-ki nd contributions specified in the terms and conditions of CMTC's
cooperative agreement. Furthermore, portions of the claims were related to activities that
occurred prior to the MEP award period.

NIST' s MEP Operating Plan Guidelines and the MEP general terms and cond itions,
incorporated into CMTC's cooperative agreement fo r the period beginning July I, 2005, directed


                                                                 3

U.S. Department of Commerce                                              Final Report No. DEN-18572 

Office of Inspector General                                                                July 2010 


MEP centers to maintain documentary evidence of contributions. To the extent that personnel
time is contributed to an MEP center, as was claimed by all five of the contributors in our
sample, the minimum required documentation includes

        •   a list of personnel,
        •   projects/tasks and dates on which they worked,
        •   the number of hours contributed,
        • hourly salary rates and allowable fringe benefits paid, and
        •   certified time and attendance records.

None of the contributors provided documentation of projects/tasks and dates on which they
worked or certified time and attendance records. Only two of the fiv~ an d ­
- - i d e n t i f ied their contributed personnel. CMTC did maintain salary and
benefits records and some details of hours contributed, in the form of percentages of stafft ime
donated, for all five contributors.

We also found that portions ofthe contributions c laimed for - and
-        occurred prior to the July I 2005, starting date ofCMTC's
contribution statement, total"             showed a contribution date of January I, 2005,
through June 30, 2005.                                  submitted two contribution statements to
CMTC, one fo r a total of                         from May I, 2005, through July 31, 2005, and a
second in the amount of               contributed from May 1, 2005, through April 30, 2006.
OMB Circular A-122, Attachment B, Paragraph 36, states that preaward costs are only allowable
to the extent they would have been allowable if incurred after the date of the award, and on ly
with the written approval of the awarding agency. We found no evidence that CMTC requested
or NIST provided written approval for in-kind contri butions prior to the award date.

Our draft aud it report included a finding that questioned the allowability of CMTC's claimed in­
kind contributions on the basis that CMTC had not complied with generally accepted accounting
principles (GAAP) in its accounting for the contributions it received. The main point of the
finding was that ifCMTC had received allowable in-kind contributions, it should have
recognized the revenue associated with the contributions in its financial records, in accordance
with GAAP. In its response to the draft aud it report, CMTC conceded that it did not receive the
in-kind contributions. Instead, the contributions involved one group of outside parties-the in­
kind contributors claimed by CMTC-provid ing services to another group of outside parties­
the manufacturers. Therefore, CMTC asserted that it had no obligation under GAAP to record
the revenue. Based on CMTC's acknowledgement that it did not receive the in-kind
contributions, and thus was not required to record the associated revenue, we adj usted our final
report to remove specific reference to the violation ofGAAP. We continue to question the in­
kind contributions on the basis that CMTC did not receive the contributions, as well as for the
reasons stated above.

Based on CMTC's failure to meet minimum requirements for documenting in-kind contributions,
the inclusion of unapproved preaward activities in the claims, and CMTC's acknowledgement



                                                 4

U. S. Department of Commel"ce                                            Final Report No. DEN-18572 

Office of Inspector General                                                                July 2010 


that it did not actually receive the claimed contributions, we question $6,584,182 in claimed
third-party in-kind contributions.

C. Recipient's Response

In its response to our November 2009 draft report, CMTC ma intained that the $4,800,000 of
claimed subrecipient costs and the $6,584,182 of in-kind contributions are allowable under its
M EP award. In addition to responding to each OIG finding individually, CMTC contended that
(I) federal law gives MEP centers the authority to determine whether costs incurred by their
partners are allowable, and (2) changes in NIST's MEP policy should not be enforced.

CMTC's response cites language in the America Creating Opportunities to Meaningfully
Promote Excellence in Technology, Education, and Science (COMPETES) Act of2007, 1 which
states that in meeting its matching share requirement, an MEP center "will enter into agreements
with other entities such as private industry, universities, and State governments to accomplish
programmatic objectives and access new and existing resources that will further the impact of the
Federal investment made on behalf ofsmall- and medium-sized manufacturing companies." The
Act further states, "All non-Federal costs, contributed by such entities and determined by a
Center as programmatically reasonable and allocable under MEP program procedures are
includable as a portion of the Center's contribution." CMTC maintains that it determined the
costs of its subrecipient and thi rd-party contributors to be allowable; therefore, the Act provides
that they are valid nonfederal matching share.

CMTC also stated its objections to NfST's MEP Operating Plan Guidelines and the revised
M EP general terms and conditions. CMTC commented that NIST issued the guidelines just one
month before renewal applications were due for the period beginning July I, 2005, giving centers
little time to structure their relationships with partners to conform to the new requirements.
CMTC believes NIST's 2005 version of the MEP general terms and conditions should not be
enforced on centers because the terms and conditions imposed new definitions on partnerships
and subawards and required personnel recordkeeping requirements for partners that exceeded
requirements in 15 CFR, Part 14. CMTC also stated that the general tenns and conditions
imposing these requirements were unilaterally incorporated into its MEP cooperative agreement
in March 2006, 9 months into the award period, and it is unreasonable to expect to see records
complying with the new requirements for the entire award period.

1. Questioned Subaward Costs

CMTC's response stated several reasons why it believes the costs claimed for subrecipient
Cerritos College should be allowable. CMTC maintains the subaward agreement was rev iewed
and approved by several NIST officials, including the grants officer, MEP program officer, and
NIST legal counsel.

CMTC disagreed with OIG's finding that the amounts claimed for the Cerritos subaward were
estimates, rat her than actual costs. According to CMTC, the claims were based on actual costs
incurred by the college's Technology D ivision, but reduced to eliminate faculty salaries related
1
    Public Law 11 0 -69, § 3003.


                                                 5

U.S. Department of Commerce                                                               Final Report No. DEN-18572 

Office of Inspector General                                                                                 July 2010 


to the division's cosmetology program. The response stated that the college uses a state­
mandated system that makes it nearly impossible to manually remove the cosmetology salaries
from its claims to CMTC. The college calculated the portion ofTechnology Division salaries
that relate to the cosmetology program; this percentage was then subtracted from the total
Technology Division costs to arrive at the amount associated with the CMTC subaward. CMTC
stated that its method for cost allocation is permissible under 2 CFR, Part 220, Appendix A,
§ J. IO.b(2)(c).Z The college submitted quarterly reports of actual Technology Division
expenditures to CMTC, although the cost categories in the quarterly submissions did vary
somewhat from the categories included in the budget submitted with CMTC's renewal
application. However, CMTC stated that simple differences in the nomenclature used to describe
cost categories did not prevent it from comparing the actual costs Cerritos reported quarterly
with the annual budgets.

Regarding the draft audit report finding that the subaward agreement with Cerritos College was
missing certain flow-down provisions, the Catalog of Federal Domestic Assistance category, and
prime award numbers, CMTC claimed that these omissions did not have an impact on the
validity of Cerritos's expenditures claimed as match. Based on the agreement, CMTC bore the
burden of assuring that only costs allowable under the award terms were reported by the college
and ultimately claimed by CMTC and reported to NIST as non-federal cost share.

2. Questioned Third-Party In-Kind Contributions

CMTC disagreed that the costs reported by five third-party in-kind contributors are unallowable.
CMTC's response stated that OIG's draft audit report "ignored the statutory underpinnings of the
MEP program" by questioning the in-kind contributions. According to CMTC, the MEP program
statute "authorizes MEP centers to use the expenditures of like-minded local organizations to
count toward the two-thirds non-federal cost share."

CMTC asserted that our draft report too narrowly defined in-kind contributions to include only
contributions received by the MEP center. CMTC did not receive the in-kind contributions it
claimed; rather, the donations were made by third parties directly to small- and medium-size
manufacturers. CMTC's response stated its opinion that the definition of third-party in-kind
contributions in 15 CFR § 14.2(nn) does not require goods and services to be directly donated to
the recipient organization, but only that donated services "directly benefit and be specifically
identifiable to further the mission of the MEP program." Furthermore, CMTC stated, the
contributions need not be distinct from the third party's regular activities and operations. Finally,
CMTC stated that the activities the contributors engaged in were identified in its operating plan
and the respective memoranda of agreement, all of which were approved by NIST.

CMTC conceded that its in-kind claims included contributions made prior to the July I, 2005,
starting date of the award. However, CMTC stated that amounts claimed fo r in-kind
contributions were less than actual contributions and these unclaimed amounts more than offset
the preaward contributions noted in the draft audit report. According to the response, CMTC's
unclaimed in-kind contributions were almost - ·


2
    2 CFR, Part 220, is the regul atory coditication of OMS Circular A-2 1, Cost Principles for Educational Institutions.


                                                             6

U. S. Department of Comme.-ce                                             Final Report No. DEN-18572 

Office oflnspector General                                                                  July 2010 


CMTC contended that it maintained adequate records to document allowability of its claimed in­
kind contributions. According to CMTC, as an MEP recipient it is responsible for determining
allowability of contributions, which it did within the context ofeach contributor's accounting
system. Each contributor established a methodology to identify costs for activities on behalf of
manufacturers. CMTC complained that, rather than reviewing financial documentation
maintained by CMTC and its contributors, 010 seemed more concerned with the relationships
between CMTC and the contributor organizations. CMTC's response summarized the
contribution documentation and valuation processes of the five contributors cited in the draft
audit report.

CMTC stated that as a result of the OIG audit, it has made several improvements to the manner
in which it evaluates third-party contributions. Among these improvements is a requirement for
CMTC representatives to conduct on-site reviews with each contributor at least annually. In
addition, CMTC reported that contributors have implemented better methods for allocating their
costs to the MEP program.

CMTC disagreed with OIG's draft report assertion that CMTC's treatment of in-kind
contributions d id not comply with GAAP. CMTC stated that it prepares financial statements
based on advice received from its independent auditor. The in-kind contributions had been
d isclosed in the notes to its fi nancial statements; however, CMTC stated that recognition of in­
kind contributions as revenue " is inconsequential as to whether the costs were a llowable third
party in-kind contributions." CMTC's response stated that since the contributions were not made
to it, but rather to the manufacturers the contributors served, there was no GAAP requirement for
CMTC to recognize revenue associated with the contributions.

D.    OIG Comments

OIG does not agree with CMTC's assertion that the America COMPETES Act gave MEP
centers complete and unchallengeable authority to determine allowability of cost claims for
subrecipients and thi rd-party in-kind contributors. At OIG's request, the Department's Office of
General Counsel reviewed the Act, with emphasis on whether it passes authority to determine
allowability of costs from the federal government to the MEP centers. The Office of General
Counsel found that the legislation explicitly states that it was intended as a clar ification of
existing law. Since the law and practice prior to enactment of the America COMPETES Act had
been that the federal government maintained final authority in determin ing allowability,                 ! ·.

reasonableness, and allocability of costs under financial assistance awards, to transfer this
authority to the MEP centers would have requ ired a new law creating an exception for the MEP
program. Again, as the stated purpose of the America COMPETES Act was to clarify existing
law-not create a new law-the argument that the Act gave the MEP centers authority to make
final, unreviewable determinations of allowability of costs is in direct confli ct with the clear
purpose of the Act. Rather than transferring authority fro m the federal government to the MEP
centers, the Act clarities that the centers need to

     • 	 review th ird-party contributions within the context of stated MEP program procedures;
     • 	 independently assess the reasonableness, allowability, and allocabi lity ofcontributions;
         and


                                                  7
U. S. Department of Commer·ce                                                         Final Rep01·t No. DEN-18572 

Office of Inspector General                                                                              July 2010 


     • 	 include only those claims found to comply with all standards as part ofthe required
         nonfederal matching share.

We do not agree that the MEP Operating Plan Guidelines and general terms and conditions
should not be enforced. The Operating Plan Guidelines did not create new definitions for
relationships MEP centers may have with other organizations, but rather defi ned existing
relationsh ips within the context ofthe three types allowed by OMB: contractor, subrecipient, or
third-party in-kind contributor. "Partner" is not a class of relationship recognized and defined in
the OMB regulations. If the Operating Plan Guidelines caused confusion, it was not because
they imposed new definitions, but rather because N IST was informing the MEP centers that they
needed to bring their relationships with other organizations into line w ith one of the three
allowable types.

We do not agree that (1) the general terms and conditions imposed new recordkeeping
requirements on third parties, (2) the alleged new requirements exceeded Office of Management
and Budget (OMB) requirements, and (3) documentation requirements for in-kind contributions
were not incorporated into CMTC's cooperative agreement until 9 months into the award period.
T he requirements to which CMTC objected did not impose time- and recordkeeping
requirements on its third-party contributors, but rather stated the minimum N JST requirements
for documenting that in-kind contributions were received and properly valued. If an MEP center
claimed to have received a contribution of services from a th ird party, we do not consider it
unreasonable to expect the center to retain supporting documentation of the type mentioned in
the Operating Plan Guidelines and general terms and conditions; namely, a list of personnel
whose services were donated; the dates, number of hours, and projects on which they worked;
the donated employees' salary rates; 3 and a certified timesheet or other record that supports the
hours and activities donated. Although these requirements were stated in both the Operating
Plan Guidelines and the general terms and cond itions, CMTC did not retain all the required
records fo r any of its claimed in-kind contributors.

With respect to CMTC's assertion that it became aware ofthe in-kind documentation
requ irements when they were unilaterally imposed by N IST 9 months into the award period, this
simply is not the case. Section III.F.(2) of the MEP Operating Plan Guidelines, issued more than
3 months prior to the Ju ly 1, 2005, starting date of CMTC's award, stated, "Centers must have
documented evidence of the third party in-kind contribution from the contributor. T his evidence
must include documentation from the contributor that contains ..." The gu idelines then list the
required documentation c ited previously in this report. Identical language also appeared in the
June 2005 version of the MEP general tenns and conditions, which were incorporated into
CMTC's initial cooperative agreement for the award period beginning July 1, 2005.

OIG does not dispute that amounts reported by CMTC's subrecipient, Cerritos College, represent
actual costs incurred by the college. Our concern in questioning the costs is that the college is not
able to isolate its actual costs incurred under the CMTC subaward from other activities ofthe


3
 Salary information is necessary because 15 CFR § 14.23(e) states that when a third party donates the services ofan
employee, the allowable in-kind contribution is limited to the employee's actual salary, plus a reasonable allocation
of fringe benefit costs.


                                                          8

U. S. Department of Commerce                                                        Final Report No. DEN-18572 

Office of Inspector General                                                                           July 2010 


college's Technology Division. Rather than establishing a compliant system for tracking
subaward costs, the college's cost claims to CMTC are based on total expenses ofthe
Technology Division, regardless ofwhetherthey were incurred within the scope ofthe subaward
or as part of the college's regular instructional offerings, less an estimated amount to account for
the portion of the Technology Division's operations that relate to the cosmetology program. As a
result, CMTC claims that the entire non-cosmetology cost of Cerritos College's Technology
Division was incurred under the subaward. We consider this to be an unreasonable assertion.

The subaward agreement between CMTC and Cerritos College states that the work the college
performed in support ofCMTC is " in addition to [its] degree and certificate programs." The
subaward statement of work describes the program support Cerritos College will provide for
CMTC as "an extensive Manufacturing Technology Program which performs outreach,
customized training, technical assistance and technology demonstration to [its] region's
manufacturing industry with focus on the small and medium-sized manufacturing companies in
four key areas." The key technology areas listed are programs offered within the Technology
Division, but Cerritos College offers degrees or certificates in each as we ll. As stated above, the
college did not separately accumulate costs associated with the degree and certificate offerings
within the Technology Division from the d iv ision's work in support of the CMTC subaward. The
claims made by Cerritos College through CMTC include not only costs incurred under the
subaward but also the Technology Division 's costs associated with its other operations, such as
degree and certificate programs. Therefore, we continue to question the costs on the basis that
the c laims do not accurately reflect actual costs incurred under the CMTC subaward.

The strongest evidence in support of our questioning of CTMC's third-party in-kind contribution
claims is found in CMTC's own response to the draft audit report. By CMTC 's own adm ission, it
d id not actually rece ive any of the contributions included in its cost claims. The only apparent
connection between CMTC and the claimed contributors is that they share a common mission of
serving manufacturers. Yet, as the relationships are structured within CMTC 's operations and
cost clai ms, CMTC believes it should qualify to receive federal funds4 as a result ofone group of
outside organizations providing services to other outside organizations, even though CMTC is
not involved in arranging for or providing the services. We maintain that the in-kind
contributions are not allowable MEP costs because they were neither incurred directly or
indirectly by CMTC, nor contributed to CMTC in lieu of amounts CMTC otherwise would have
had to pay.

With respect to CMTC's claim that its actual in-kind contributions were greater than amounts
claimed, this would have no effect on our calculation of allowable project costs. For the reasons
stated above, we consider all simi lar in-kind contribution claims to be unallowable, regardless of
the amount.

CMTC 's assertion that it did not deviate from GAAP in its accounting treatment of the in-kind
contributions has no bearing on our decision to question the claims. In fact, one of the bases
CMTC cites for not reporting the contributions as revenue is that it did not actually receive the

4
  Because CMTC's cooperative agreement included a one-third federal sharing ratio, for each $ 1,000 claimed as an
in-kind contribution to the award, CMTC qual ified to receive $333 from NIST, even though CMTC had no out-of­
pocket expenditures associated with the c laimed contribution.


                                                        9

U.S. Department ofCommerce                                              Final Report No. DEN-18572 

Office of Inspector General                                                               July 2010 


contributions. As we state above, this only supports our contention that CMTC should not have
claimed the in-kind amounts.

We reaffirm our findings that CMTC claimed unallowable subrecipient costs of $4,800,000 and
unallowable third-party in-kind contributions of$6,584, 182.

II.   Undisbursed Program Income

The draft audit report pointed out that CMTC had requested and received NIST approval to carry
more t h a n - of undisbursed program income from the award year ended June 30,2006,
into the subsequent award year. Although our concerns about the magnitude of the undisbursed
program income remain-the amount approved for carry-forward exceeded CMTC's approved
federal funding under the MEP cooperative agreement-CMTC pointed out in its response to the
draft audit report that it did obtain necessary approval from NIST to retain the undisbursed funds
for use in the subsequent period. OIG agrees with CMTC's assertion that any concerns we might
have regarding approval ofCMTC's carry-forward of undisbursed program income should be
addressed with NIST, not CMTC. We have adjusted our fi nal report on CMTC accordingly.

III. Recommendation

We recommend that the chief ofNIST' s Grants and Agreement Management Division disallow
$ 11 ,384, 182 in questioned costs and recover $3,794,349 in excess federal funds, as calculated
below in our summary.




                                                                                                        : .




                                                10 

U.S. Department or Commerce                                            Final Report No. DEN-18572 

Office of Inspector General                                                              July 2010 


                         SUMMARY RESULTS OF FINANCIAL AUDIT



The resu lts of our interim cost audit for the period July 1, 2005, through March 30,2007, which
are detailed in Appendix C, are summarized as follows:

       Federal Funds Disbursed                                $ 15,355,400
       Costs Incurred                        $46,070,804
       Less Questioned Costs                  11,384,182
       Costs Accepted                         34,686,622
       Federal Cost Sharing Ratio              X   33.33%
       Federal Funds Earned                                     11.561,05 1

       Refund Due the Government                               $3.794.349




                                               II

U.S. Department of Commerce                                              Final Report No. DEN-18572 

Office of Inspector General                                                                July 2010 


                    APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective ofour audit was to determine whether CMTC reported costs to NIST, including
costs incurred by subrecipients, that were reasonable, allocable, and allowable in accordance
with applicable federa l cost principles, cooperative agreement terms and conditions, and NIST
policy, including the MEP Operating Plan Guidelines. T he audit scope included a review of
costs claimed by CMTC during the award period of July I , 2005, through March 31, 2007.

We performed our audit fieldwork during April and September 2007 at CMTC's headquarters in
Torrance, California; at the subrecipient's campus in Norwalk, California; and at third party in­
kind contributors' offices in the cities of San Diego, Montrose, Irwindale, and Los Angeles,
California. To meet our objective, we interviewed CMTC and NIST Grants Office officials,
reviewed N IST award documents, and examined CMTC's financial records. We also interviewed
officials and examined financial records of CMTC's subrecipient and third-party in-kind
contributors.

We reviewed the follow ing laws, regulations, and award requirements:
   • 	 Office of Management and Budget Circular A- 122, Cost Principles for Nonprofit 

       Organizations 

   • 	 15 CFR, Part 14, Uniform Administrative Requirements for Grants and Agreements with
       Institutions ofHigher Education, Hospitals, Other Non-Profit, and Commercial
       Organizations
   • 	 Department of Commerce Financial Assistance Standard Terms and Conditions, MEP
       General Terms and Conditions
   • 	 Special Award Conditions

We verified the validity and reliabi lity of computer-processed data supplied by CMTC by
directly testing data against support ing documentation. Based on our tests, we concluded the
computerized data were reliable for use in meeting our objectives.

We analyzed nonstatistical samples ofCMTC, subrecipient, and third-party in-kind contributor
transactions, generally focusing on the highest-dollar-value transactions and line items. Si nce we
did not attempt to extrapolate findings from sample analyses to all transactions, we be lieve our
sampling methodology represented a reasonable basis for the conclusions and recommendations
included in our report.

We obta ined an understanding of the management controls ofCMTC by interviewing CMTC
officials; examining policies, procedures, and CMTC's most recent single audit report; and
reviewing written assertions ofCMTC officials. Our report contains specific recommendations to
address CMTC's reporting of undisbursed program income.

T he audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order I 0-13, dated August 3 1, 2006, and in accordance with
generally accepted government auditing standards. T hose standards require that we plan and


                                                12 

U.S. Department of Commerce                                              Final Report No. DEN-18572 

Office of Inspector General                                                                July 2010 


perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




                                                13 

U. S. Department ofCommerce                                           Final Report No. DEN-18572 

Office of Inspector General                                                             July 2010 


              APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS

                  CALIFORNIA MANUFACTURING TECHNOLOGY CONSULTING 

                   NIST COOPERATIVE AGREEMENT No. 70NANB5H1181 

                         JULY 1, 2005, THROUGH MARCH 31,2007 




                                            Approved                     Receipts &
                                             Budget                       Expenses
                                              (a)                           (b)
SOURCE OF FUNDS:

Federal                                     $19,963,806              $15,355,400
Non-Federal                                  39,982,612               30,715,404

Total                                      $59.946.418               $461070,804



APPLICATION OF FUNDS:

Personnel                                                            $
Fringe Benefits
Travel
Equipment
Materials
Subcontracts
In-Kind
Construction
Other
Ind irect Costs

Total                                       $59 946.4 18             $46.070.804 (c)




(a) The approved budgeted costs are for the period of July I, 2005, through September 30, 2007.
(b) The receipts and expenses are for the period of July I, 2005, through March 3 1, 2007.
(c) Total does not sum to $46,070,804. $1 rounding error is not material.




                                              14 

U. S. Depa r tment of Comme.-ce                                                      Final Repor t No. DEN-18572 

Office of Inspector General                                                                             J uly 2010 


                        APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AU DIT

                        CALIFORNIA MANUFACTURING TECHNOLOGY CONSULTI NG 

                         NIS T COOPERATIVE AGREEMENT No. 70NANB5H l181 

                                J ULY 1, 2005, THROUGH MARCH 30,2007 


                                                                                  Results of Audit
                          Approved                  Costs              Costs          Costs              Costs
Description                Budget                  Claimed           Questioned   Unsupported           Accepted

Personnel                                                                    $0               0
Fringe Ben.                                                                   0               0
Travel                                                                        0               0
Equipment                                                                     0               0
Materials                                                                     0               0
Subcontracts                                                       4,800,000 (a)              0
In-Kind                                                            6,584,182 (b)              0
Construction                                                                  0               0
Other                                                                         0               0
Ind irect                                                                     0               0
Total                   .$59.946.4 I 8          $46.070.804 (c) $ 1 l.384. I 82  $            0      $34.686.623 


Federal Funds Disbursed                                             $15,355,400
Costs Incurred                                  $46,070,804
Less Questioned Costs                            II ,384.1 82
Costs Accepted                                   34,686,622
Federal Cost Sharing Ratio                          X 33.33%
Federal Funds Earned                                                 11,561,051

Refund Due the Government 	                                         $ 3.794.349

Notes:

(a) 	 Questioned cash match which consists of costs claimed by CMTC's subrecipient, Cerritos
      College, for which the college could not provide evidence that the claims involved actual,
      allowable costs.

(b)
      •       •   . I       I   I '                •
                                                  ·~
                                                                       I .
                                                                             •                 ·~




                        m             '~
                                           }I


(c)   Total does not sum to $46,070,804. $ 1 rounding error is not material.




                                                             15 

U.S. D epar t m ent of Comme•·ce                                                                                      Final R eport N o. D EN-18572 

O ffice of Inspector Gen er a l                                                                                                            July 2010 



                        A PPENDIX D:                  CMTC RESPONSE T O DRAFT AUDIT REPORT



                CAlltOI• l A M AH UF A CTUif)f4 T IE CK MO L OCiY CON SUlTI NG •




             January 29,2010

             Ms Marie Bunon
             Acting Regional Assi stant Inspector Genera.! for Audits
             United States D epartment of Commerce
             Office of I nspector General
             Denver Regional Office of Audits
             999 18lh Street, Suite 765
             Denver, Colorado 80202-2499

             Dear Ms Barton:

                     Thank you for the opportunity to comment upon the Draft Audit Report No. DEN-18572.
             This letter responds to the proposed findings, questioned costs, and recommendations
             regarding whether we compfied with the award terms and conditions and operating guidefines
             for M EP centers for the period July 1, 2005 through March 31 , 2007. Our position is that the
             issues cited in the audit report were not due to undocumented costs, but were due to the
             aforementioned NIST issuances imposing unreasonable and unsuitable requirements for
             documenting partnership costs. CMTC's multiple partners' systems had inherent limitations
             which prevented identifying these costs exactly as prescribed. We maintain that the entire
             amount of $11 ,384,182 in questioned costs was property supported. Attached are two
             documents supporting CMTC's position regarding the draft findings, questioned oosts, and
             recommendations. Most, if not all, of the documents tn Attachment B were available to the
             auditors during the on-site review.

                     The d iscrepancies reported in the audit are largely resulting fro m 1) partnerships
             being an integral and necessary part of the MEP/CMTC program, and 2) the requirements
             in the MEP Terms and Conditions not being compatible with CMTC partner cost
             accounting system s. NIST terms and conditions and the audit assumed w e could compel
             o ur partner to change their systems, and as such, the NIST Terms and Conditions were
             m ore s uited to reporting for contractors, not as partners for 3rd party ln ·kind
             contributors and sub-recipient ConsequenUy, the audit r eported d iscrepancies that were
             a consequence of the peculiarities of the MEP Terms and Condi tions. So, while the
             financial reports support the matching cost claims made during the period were
             available, they were essentially ignored because they did not meet the formats sought by
             the auditors.

                    Recently, in November 2009, NIST MEP, recognizing the necessity to make terms and
            conditions more suitable for partnering, modified them. Since these revised Terms and
            Conditions are more reasonable for partners, we request that for the audited period the costs
            documented in the attachments now be accepted. It has long been recognized that the NIST
            Terms and Conditions needed to be modified to allow MEP centers to wort< with partners'

               lf~IJdfiiiUrtriS   6QO k GU.~ Str~et                         .SC.•'C"'f lfPJ:Ifllffll Arro• x   l.OI 1\ft&c:lu.
                                  S\lite 200                                                                   O.ancc Couoty
                                  To,nnc.:. (.'alirornia 9US02                                                 lelond t:mpitc
                                                                                                               ~n Fernando i Sao Ulbricl VJIIcy
                                  J 10 26.1 )060 pl>o~
                                  3 10 26J :10u r,.                                                            \katura I ~:. nla B:rh:ara
                                                                                                               San Juo'luil\ v .. ucy
                                  W"'i'vt.cnttt.tom                                                            San Oic:ro
systems, which are designed to capture only data and reports required for their operations and
audit requirements. For example, neither state law nor community college regulations require
timesheets for exempt employees, as was required in the General Terms and Conditions. Since
our partners were not contractors, we could not compel them to report costs consistent with
NIST General Terms and Conditions. However, the US Congress, in the America Competes Act
passed in August 2007; and NIST MEP, with promulgated changes in late 2009 to the MEP
General Terms and Conditions, both addressed these problematic NIST General Terms and
Conditions with a more appropriate reporting requirement for partners. As documented in the
Attachments A and 8, during the audit period, CMTC had, in fact, reasonable financial reports
detailing the costs claimed for the work performed by our partners, consistent with the modified
NIST General Terms and Conditions.

         As indicated in Attachment 8, the Manufacturing Extension Partnership (MEP) Centers
were not established to operate independently, but instead to leverage new and existing
resources to transfer its knowledge and technology to as many small and medium-size
manufacturers as possible. As documented in Attachment 8, the partnering policy is both
emphasized and a well established integral part of the MEP program execution. In addition, the
MEP Program policy requires a two-thirds (2/3) cost share burden, meaning that for every dollar
of federal funds used, CMTC must document two dollars in eligible matching costs. To meet
each of these requirements, CMTC relies heavily on working with like-minded organizations,
i.e., partners, whose expenditures may be claimed as non-federal cost share. Given the low
percentage of federal dollars provided under the program, CMTC partnering organizations
provide their own sources of funding for their activities.

        The auditors' assertion that there is no direct financial benefit received by CMTC from its
partnering ignores the leverage value between CMTC and its partnering organizations. The
value received by CMTC is derived from our enhanced capabilities and reduced costs from
partnering (i.e., leverage) to provide services to the largest total number of manufacturers in the
U.S., within the 3rd largest service area. In short, the partnering value translated into
considerable cost savings and increased number of manufacturers served in CMTC's service
areas. Consequently, the contributions of these partner organizations are made to CMTC's
program and mission, through increasing its ability to reach small and medium-sized
manufacturers in its very diverse and large service area.

        The Draft Audit Report questions third-party in-kind costs "because their goods and
services were not provided to CMTC, were costs incurred by the partners in the course of
performing their regular activities, were not documented in accordance with generally accepted
accounting principles, and portions were incurred prior to the award period". In addition, it
states that the contributors' personnel time was not documented in accordance with the MEP
General Terms and Condition 14.A As CMTC states above, while our financial documentation
may not have been consistent with that normally available to contracted work, CMTC did in fact
have adequate documentation for the total partner costs claimed on Attachment A. As shown
on Attachment A, during the audit, CMTC collected official signed records from its partners,
detailing partner costs and services. While, for the most part these records are not cited or
referenced in the audit report, they do show the details for all claimed costs and were provided
to the auditors.




          Headi{Uarler.s   690 Knox Street                     S~NeT~   Regional Areas Los Angeles
                           Suite 200                                                   Orange County
                           Torrance, CA 90502                                          Inland Empire
                           310.263-3060 phone                                          San Fernando I San Gabriel Valley
                           310.263-3062 fax      2                                     Ventura I Santa Barbara
                           www.cmtc.com                                                San Joaquin Valley
                                                                                       Sau Diego
        Our position is that the in-kind contributions meet the requirements for matching costs
under 15 C.F.R §14.23 and meet the intent of reasonableness, These official records are
consistent with the 2009 modified MEP General Terms and Conditions, which allow for "on­
going resources" and recognize the limitations of the partnering organizations' reporting
systems. Further, our position is that CMTC and its partners should not be subject to changed
terms and conditions that are retroactively and unilaterally imposed by NIST during an award
period (the auditors used unilaterally changed terms and conditions during their examination,
which exceed 15 C.F.R §14.23). While CMTC accepts the auditor's finding regarding pre­
award costs of two partners, CMTC disagrees with the finding that any amount is due back.
CMTC has ample available and allowable in-kind to substitute costs, as more matching costs
were reported to CMTC by their partners than reported and claimed under the award. Lastly,
CMTC's financial statements did not include the in-kind donations as revenue because it was
not the direct recipient of the contributions.

The Draft Audit Report questions the Sub-recipient reported costs of Cerritos College
Technology Division because they were estimated costs. Our position is that the costs reported
to NIST were reasonable, allocable, and allowable in accordance with the federal cost principles
and other laws and regulations applicable to MEP recipients. As shown in Attachment B,
Cerritos College Technology Division costs claimed by CMTC were not based upon "estimates,"
but on actual costs incurred as reported in their quarterly financial reports. Cerritos relied upon
its existing accounting system to record its expenditures, and would subtract costs that were not
allocable to the MEP program or unallowable under the cost principles and the terms of the
cooperative agreement. A comparison of those actual expenditures against the proposed
budgeted amounts and a determination as to whether those costs were reasonable, allocable,
and allowable was made by CMTC, on a quarterly basis, during the period of perlormance.

        The Draft Audit Report criticizes this methodology in determining the Sub-recipient
reported costs. Based upon these findings of minor missing information, the Draft Audit Report
questions all of Cerritos matching costs reported in the amount of $4.8 million as if none of them
had been documented. As discussed in the paragraphs above, CMTC believes that the audit
findings related to Cerritos are based on form over substance and the result of an unreasonable
requirement for partners. CMTC therefore attaches supporting documentation in Attachment B,
and demonstrates how Cerritos' total sub-recipient expenditures of $4.8M should be allowed as
non-federal match.

        With regard to the audit findings on Excess Program Income, our position is that this is
an opinion without foundation. In fact, CMTC acted in accordance with 1) the CMTC Board of
Directors fiduciary responsibility and direction, and 2) properly sought and received NIST
approval to carry forward Excess Program Income. CMTC's Board of Directors has fiduciary
responsibility for assuring adequate financial reserves for the stable operation of CMTC.
Documentation supporting the Board's position was made available to NIST, and CMTC acted
with NIST's full knowledge and approval. In fact, events following the audit have shown the
wisdom in the decisions to carry an ample reserve, as the level of reported Excess Program
Income has since declined by several million dollars, mainly due to the economic challenges
experienced. It should also be noted that CMTC acknowledges that Excess Program Income is
to be spent in furtherance of the MEP program, and that any Excess Program Income carried
over should be used consistent with good non-profit company practices and economic
conditions.

         HcadquaTtcr:s 690 Knox Street                         Seven Regwnal Areas Los Angeles
                       Suite200                                                    Orange County
                       Torrance. CA 90502                                           Inland Empire
                       31 0-263·3060 phone                                         San Fernando I San Gabriel Valley
                       31 0-263-3062 fax        3                                  Venturn I Santa Barbara
                       www.cmtc.com                                                San Joaquin Valley
                                                                                   San Diego
In closing, we contend that the CMTC program and cost records, while not in strict accordance
with the NIST prevailing General Terms and Conditions, were adequate for partnerships as
reflected in the America Competes Act and the updated NJST MEP General Terms and
Conditions. CMTC's 3m party in-kind and sub-recipient's costs are documented. In addition,
CMTC recognizes the value in the audit, and has taken management steps to strengthen its
partner reporting further to assure well documented program costs.




                      rJ          ~
J~:.~:~B~n
Sinn_____ _               tLr--


Vice President and CFO


Enclosure

cc: Laura A. Ceasario, Chief, NIST Grants and Agreements Management Division




         Headquarte" 690 Knox Stnxt                         Sewn Regiorwl Areas Los Angeles
                     Suitc200                                                   Orange County
                     Tom~~~ce. CA 90502                                         Inland Empire
                     31 ().263-3060 phone                                       San Fernando I San Gabriel Valley
                     31 ().263-3062fax        4                                 Ventura I Santa Barbara
                     www.cmtc.com                                               San Joaquin Valley
                                                                                San Diego
Attachment A 

                                                                                                                                                                                              Attadlment A

                                                                    Summary of Documented Detail For In-kind Expenditures
                                                                                  During OIG Audit Period



                                                                                                                                                                                   Dotall General
                                              In-kind                                                                                                                               Ledger from
                                            Reported t o                                                   In-kind                                                                   Partner's
                                             NISTand                                                    Cont ribution                                                            Accounting System
                                                                                                        by Expense                                                                 for Non -Payroll




~
1,   Additional match available from Partners that v.ere not previously reported to NIST and can be used to cover any in-l<ind disalov.ed by the OIG.
2.
3.
4.
5.
     Of the             reported by- . ~ is from months prior to the aud~ period. Therefore actual amount available is ,~~~ (···· -. . .).
     CMTC over reported in-kind
     Of the             reported
                                                due to incooect reading of performance period. The cooect in-kind amount should be -~
                                                    for the period in question, ~ is from months prior to the audit period. Therefore adual amount available is • • • • ~···1-
     TBD (To be determined). CMTC is in discussion IMth Partners to obtain documents.
                                                                                                                                                                                   ...).
                                                                                                                                                                                                        ....... 

                                                                                                                           hl~~we~Mant:ptqt!WtG~Jwiwt. Odd E..,... a..cM~, to, l'•~~ofP'M,_. 1Ml~2010.01 ·2f
           Attachment B


CMTC's Response to Draft Audit Report
 Attachment B


                                                    TABLE OF CONTENTS 



I.   MEP PROGRAM PARTNERING ENTITIES AND ALLOWABLE COSTS ............... 1 

   A. The MEP Statute............................................................................................................... 1 

   B. The Programmatic Purposes of the M EP as Communicated by the Government ....... 2 

   C. 2009 MEP General Terms and Conditions Revision ...................................................... 4 

II.      NIST 2005 OPERATING PLAN GUIDELINES AND MEP GENERAL TERMS 

         AND CONDITIONS ......................................................................................................... 5 

III.     QUESTIONED SUBRECIPIENT COSTS ..................................................................... 9 

   A. Required Provisions for Subrecipient Agreements ....................................................... 9 

   B. Cerritos' Costs Claimed by CMTC Meet Financial Management Standards .. .. ...... I 0
     l. Accurate Disclosure of Actual Costs Incurred ......................................................... 11 

     2. Comparison of Actual Outlays with Budgeted Amounts ........................................ 13 

     3. Written Procedures for Determining AUowability .................................................. 14 

IV.      QUESTIONED THIRD PARTY IN-KIND CONTRIBUTOR COSTS ..................... 15 

  A. Overview of Third                   In-Kind Contributors .......................................................... 15 

     I.                                                                                                             ('­
                    ................................................................................................................. .... 15
                    ..................................................................................................................... 15
                                                                                                         -              ) ................... 16
     4. 	                                                               .. .................................. ............................. 16 

     5. 	                                                                  . .................. .. .......................................... 16 

  B. 	 CMTC's Third Party In-Kind Contributions arc Allowable Costs............................ 16 

  C. 	 Costs Prior to the Award Period ................................................................................... 18 

  D. 	 C MTC'S Third Party In-Kind Contributors Maintained Adequate Records for 

        Reporting Match ............................................................................................ ................. 19 

     1. The Appropriate Stan dard is 14.23 ............................................................... .............. 19 

     2. CMTC Review of Third Party In-Kind Contributors Expenditut·e Reports ....... . 24 

     3.     Improvements to Record-Keeping ........................................................................ 24 

  E. CMTC Followed GAAP With Respect To In-Kind Contl"ibutions ............................ 25 

  F. Additional Funds Available For Cost Share Contribution ......................................... 26 

V. QUESTIONED EXCESS PROGRAM INCOME ........................................................... 27 

VII. CONCLUSION ............................................................................................................... 28 

TABLE OF EXHIBITS .............................................................................................................. 30 

                           CMTC Response to Draft Audit Report No. DEN-18572

        This responds to the proposed findings and recommendations identified in Draft Audit
Report No. DEN-18572 of California Manufacturing Technology Consulting ("CMTC'. or the
"Center") Cooperative Agreement Award No. 70NANB5H 1181 for the period July I, 2005
through March 31, 2007 (the "Agreement"). As discussed in detail below, the audit report seems
to challenge NIST's implementation of the Manufacturing Extension Partnership ("MEP") as
understood by all of the MEP Centers, the value of the partnerships in the extension of services
and knowledge to manufacturers, and the statutory mandate that the expenditures, whether in
cash or in-kind, of those pminering organizations be accepted as part ofthe MEP Centers'
matching costs.

         Attached to this Draft Audit Response are documents supporting CMTC's position
regarding the draft findings and recommendations-documents that were available to the
auditors during the on-site review. We anticipate producing additional documentation from our
partners after the final report is issued. We note that during the audit, there was little focus on
the financial management and records ofCMTC and no recognition of the many
accomplishments of CMTC in providing high quality services to the small- and medium-sized
manufacturers it serves throughout California. Furthermore, throughout the Draft Audit Report,
the auditors focused on the form rather than the substance ofCMTC's agreements and
supporting documentation submitted by its partners.

        Additionally, it is impo1iant to note that CMTC has built strong partnerships in spite of
the fact that they offer few federal dollars to their pminers. We believe that our arguments and
supp01ting documentation illustrate that CMTC implemented the partnership agreements exactly
as contemplated under the statute and implemented by NIST. We would like to note that as a
result of the audit, CMTC has been able to make some improvements to its practices and
procedures. 1t is also significant that in this past award year, CMTC was able to obtain approval
by NIST's Grants Oftlcer ofthe methodology by which all of our partners allocate and document
their costs.

I.         MEP PROGRAM PARTNERING ENTITIES AND ALLOW ABLE COSTS

           A.       The MEP Statute

        The MEP statute states the purpose of the program is "to enhance productivity and
technological pcrfonnance in the United States." 1 MEP Centers are directed to accomplish this
goal through: (I) the transfer of manufacturing technology and techniques from N1ST to Centers
to manufacturing companies; (2) participation of individuals from industry, colleges, State
governments, other Federal agencies and NIST in cooperative technology transfer activities; (3)
efforts to make new manufacturing technology and processes usable by small- and medium-size
U.S. companies; (4) active dissemination of scientific, engineering. technical, and management
infonnation to industrial firms. including small- and medium-sized manufacturing companies;
and (5) utilization of expe1tise and capability that exists in Federal laboratories other than NIST. 2

1
    15 U.S.C. ~ 278k(c).
2   !d.


CMTC Response to Drati Audit Report No. DEN-18572
       In 2007, Congress clarified its intent regarding the eligibility ofpartnering organizations'
expenditures as matching costs. Section 278k(c) ofTitle 15 ofthe United States Code states in
relevant pari:

                 (3)(B) In order to receive assistance under this section, an
                 applicant for t1nancial assistance under subparagraph (A) shall
                 provide adequate assurances that non-federal assets obtained from
                 the applicant and the applicant's partnering organizations will be
                 used as a funding source to meet not less than 50 percent of the
                 costs incurred for the first three years and an increasing share for
                 each of the last three years. For purposes of the preceding
                 sentence, the costs incurred means the costs incurred in connection
                 with the activities undertaken to improve the management,
                 productivity, and technological perfonnance of small- and
                 medium- size manufacturing companies.

                 (C) In meeting the 50 percent requirement, it is anticipated that a
                 Center will enter into agreements with other entities such as private
                 industry, universities, and State governments to accomplish
                 programmatic objectives and access new and existing resources
                 that will further the impact of the Federal investment made on
                 behalf of small- and medium- size manufacturing companies. All
                 non-Federal costs, contributed by such entities and determined by a
                 Center as programmatically reasonable and allocable under MEP
                 program procedures are includable as a portion of the Center's
                 contribution. 3

        B. The Programmatic Purposes of the MEP as Communicated by the Government

         The Department of Commerce, through the National Institute of Standards and
Technology ("NIST"), has communicated its interpretation ofthis statute to the public in
multiple formats. For example, the Catalog ofFederal Domestic Assistance ("CFDA" No.
11.611) description ofMEP states the objective of the MEP program is "[t]o establish, maintain,
and suppmi manufacturing extension centers and services, the functions of which are to improve
the competitiveness of finns accelerating the usage of appropriate manufacturing technology by
smaller U.S. based manufacturing fim1s, and partner with the States in developing such technical
assistance programs and services tor their manufacturing base." 4 It futiher provides under Uses
and Use Restrictions: ·'Federal funding provided under this program shall be used for the
creation and suppmi of manufacturing extension services, or used by the States to plan tor and
pilot test state-wide extension services. It may also be used to plan tor and pilot test services

3
 Exhibit I, America Competes Act. Pub. L. No. 110-69, Sec. 3003, 121 Stat. 587 (2007). 

4
 CFDA is a database of Federal funding opportunities. Each program is assigned a number: 11.611 is the number 

assigned to MEP. The description ofMEP can be found at: 

https:l/www.cfda. gov/index'?s~program&mode~fonn&tab~step I &id~dbacOO l9X32dbeba l54f6cfeab641 d4d (last 

accessed .Jan. 27, 20 I 0). 



CMTC Response to Drati Audit Report No. DEN-18572                                                             2
within a multi-state region which has sufficient regional linkages to justify such services.
Extension service providers shall be affiliated with a U.S. based nonprofit institution or
organization or group thereof. Funds may be used for demonstrations, technology development,
active transfer and dissemination of research findings and extension service expertise to a wide
range of companies and enterprises, especially small manufacturers with fewer than 500
            ,.)
empIoyees. ·

         NIST MEP website 6 further clarifies the intent of the program:

         MEP's strength is in its partnerships. Rather than creating products,
         services, and programs from scratch, MEP works with partners to leverage
         resources and bring those resources to manufacturing clients. The MEP
         nationwide network, with its direct reach to the nation's manufacturers,
         has proven to be invaluable to numerous federal government partners who
         utilize the network to distribute valuable, cutting-edge information and
         resources in areas of workforce, technology adoption, environment and
         energy, quality, and more. In addition, using partnerships, MEP leverages
         the federal govenunent's investment in other programs through awareness,
         education, collaboration and implementation.

It also emphasizes the importance of leveraging resources, stating that "[c]reatively using
existing resources and parinering to extend them through the MEP network to the nation's
manufacturers puts MEP in a unique position to help the nation's manufacturers access
invaluable resources that might otherwise have gone unknown and unutilized." 7 Thus, the
government itself has indicated that partnerships and the ability to leverage all available
resources are essential to the continued success of the program in assisting small- and medium­
sized manufacturers.

       A National Strategy for Manufacturing Excellence, a repori presented to and endorsed
by the NIST's Visiting Committee on Advanced Technology, states:

         The Patinership is not hierarchically-organized, and it is not exclusive. Its
         strength is based on linking a widely-diverse and evolving collection of entities,
         some of which are funded and directly assisted by NIST and others which
         originate locally or with other Federal or state agencies. It is built on state and
         local understanding of the needs of the manufacturers, and on the creative energy
         of the individual organizations that make up the network.

         The MEP Guiding Values include "Leveraging all available resources. We
         believe that investments in infrastructure, new product development, and market
         research should be continuously leveraged across the system in order to enhance
         the services to all manufacturers, and on the creative energy of the individual
         organizations that make up the network.''

5/d
6
  http://www.mep.nist.eov./partnerslindex.htm (last accessed Jan. 27. 2010).
7/d



CMTC Response to Draft Audit Report No. DEN-18572                                                 3
C. 	 2009 MEP General Terms and Conditions Revision

         NIST recently issued revisions to its Operating Plan Guidelines and MEP General
Terms and Conditions 8, which implement the legislative clarification that was enacted to
clarify the partnering entities' value to the MEP Centers. The 2009 General Terms and
Conditions state in relevant part:

           8. 	 INTERACTIONS WITH NIST AND OTHER MANUFACTURING 

                EXTENSION PARTNERSHIP ORGANIZATIONS 


           It is anticipated that a center will enter into agreements with other entities such as
           private industry, universities, and State governments to accomplish programmatic
           objectives and access new and existing resources that will further the impact of
           the Federal investment made on behalf of small- and medium-sized companies
           [Public Law II 0-69, America COMPETES Act, Sec. 3003(a)]. 9

         CMTC's Director, with full knowledge and acceptance ofNIST officials, recognized the
value ofCalifomia community colleges' participation in the MEP program and found their
activities as programmatically reasonable and allocable to the MEP program. Thus. their
expenditures are included as a portion of CMTC' s matching costs. The auditors did not
comprehend fully how the statutory authorization and implementation supports the expenditure
of funds by pminers. This lack of understanding led to the questioning of the contributions of
CMTC's partners. The statute suppotis technology transfer from NIST, through its Centers and
their partnering organizations, to small- and medium-size manufacturers. We request that NIST,
in its final audit resolution process, apply the MEP statute as enacted by Congress.

         The MEP Program imposes a two-thirds (2/3) cost share burden, meaning that for every
dollar of federal funds used, the grantee must document two dollars in eligible matching costs
and/or program income 10 to be applied as non-federal cost share. To meet this requirement,
Centers rely heavily on working with like-minded organizations whose expenditures may be
claimed as non-federal cost share. Given the small percentage offederal dollars provided under
the program, CMTC partnering organizations must have their own sources of funding for their
activities. While entering into subrecipient agreements and giving subawards to pminers would
transfer responsibility for compliance with Federal requirements to the pminers, CMTC cannot
do so because it has no Federal funds to award to its patiners. Therefore, CMTC bears the
primary responsibility for assuring that the patiners' expenditures comply with the terms of its
award. The Drafl: Audit Repoti incorrectly concludes that the CMTC did not have adequate


8
    See Exhibit 3C.
9   !d.
10
  Program income is gross income eamed by the recipient that is directly generated by a supported activity or
eamed as a result of the award. Program income includes, but is not limited to, income from fees for services
perfonned. the use or rental of real or personal property acquired under federally-funded projects, the sale of
commodities or items fabricated under an award, license fees and royalties on patents and copyrights, and interest on
loans made with award funds. Interest eamed on advanced of Federal funds is not program income. 15 C.F.R. §
14.2.


CMTC Response to Drat! Audit Report No. DEN-18572                                                                  4
financial documentation. During the audit, CMTC and its partners produced hundreds of
records, almost none of which are cited or referenced in the Draft Audit Report.

         Consistent with statutory mandates, partnerships add direct value to CMTC by reducing
the duplication of activities and by leveraging the partner's activities to increase MEP mission
effectiveness, penetration, and output. Partners use their own reputation and marketing and
refen·al activities to expand MEP etf011s, resulting in increased numbers of small- and medium­
size manufacturers receiving needed assistance and increased efficiencies in project execution.
Partners also integrate MEP services into their own service offerings to increase CMTC's value
and prevalence within the community. Whether the manufacturers first contact the Center or one
of its partners should not affect the allocability of the costs contributed to the MEP program.
Furthennore, the statute clearly rests the determinations of reasonableness and allocability of
matching costs upon the Centers. The Centers' determination of the allocability and
reasonableness of matching costs should not be overturned, unless careful analysis determines
they are not related to the program or without basis in fact (unsupportable).

        The goal of NIST MEP, as embodied in its programmatic objectives, is not to bring
outside resources into the Center (the typical federal paradigm of cost-share), but instead the goal
is to engage additional intem1ediary organizations to push the technology, programs, and
expertise as far out into the community as possible. See 15 C.F.R. § 290.3(e). The direct benefit
CMTC receives from its pminerships is the ability of another entity to provide the services and
perfotm the education and outreach functions that enhance and further CMTC's mission,
allowing CMTC to focus on offering additional services, education, and outreach to small- and
medium-size manufacturers. Further, partnerships allow Centers maximize their geographic
reach, thereby increasing the number of manufacturers they can serve. CMTC works with its
partners to best allocate resources and facilities to serve manufacturers while reducing any
duplication of effo1i.

       II. 	   NIST 2005 OPERATING PLAN GUIDELINES AND MEP GENERAL TERMS
               AND CONDITIONS

       The Draft Audit Report relies upon revised Operating Plan Guidelines 11 ("Guidelines")
issued one month before renewal applications for continued participation in the MEP program
were due to NIST and the MEP General Terms and Conditions ("GTCs") that were not
authorized, properly issued, or incOtvorated into the cooperative agreements issued during the
audited period. The Guidelines and GTCs imposed new definitions for partnerships and
subawards, and required personnel recordkeeping requirements on pminers that exceeded the
requirements in 15 C.F.R. Pmi 14 and the federal cost principles, and restricted patiner cost
share. These new GTCs were incorporated unilaterally into the awards in March 2006, almost
nine months into the award period, yet the auditor expected to see records complying with those
unauth01ized heightened standards for the entire audit period.

       Those revised 2005 Guidelines and GTCs strained relationships with pminering
organizations, precipitating a legislative clarification (having retroactive effect) of the MEP
authotizing statute to clearly and unambiguously state that all non-federal costs contributed by

11
     See Exhibit 4A.


CMTC Response to Drati Audit Report No. DEN-18572                                                  5
partnering organizations are to be counted as a portion of the Center's required cost contribution.
Second, the statute defines "costs incurred'' as "costs incmTed in connection with the activities
undertaken to improve the management, productivity, and technological perfonnance of small­
and medium-size manufacturing companies." 12 Third, the discretion for determining which costs
are programmatically allocable and reasonable is given to the Center. 13

       The legislative history is clear that all contributions by industry, universities, and state
governments, which frequently act as partners, "may be included as a portion of the Center's 50
percent or greater funding obligation if it is determined by the Center to be programmatically
reasonable and allocable." 14 Senator Snowe stated on the floor that "[b]y teaming with
[partners], ... the centers can and do leverage their Federal resources and avoid duplicating
services." 15 Without these partnerships, the Centers could not meet their extraordinary cost share
requirements.

       The auditor claimed that the reported matching costs of CMTC's partners did not meet
the requirements of the GTCs. Section 14(A) of the GTCs ("GTC #14") imposes very detailed
document requirements for all in-kind contributions. 16 The new tenn provided in relevant part:

         Documenting Third Party In-Kind Contributions Under 15 CFR Part
        290.4(c)(4) and (5):

        Per 15 CFR 14.2(nn), Third party in-kind contributions means the value of
        non-cash contributions provided by non-Federal third pmiies. Third party
        in-kind contributions may be in the fonn of real property, equipment,
        supplies and other expendable property, and the value of goods and
        services directly benefiting and specifically identifiable to the project or
        program. Centers must have documented evidence of the third pmiy in­
        kind contribution from the contributor. This evidence must include
        documentation from the contributor that contains:

             • 	 A list of the type of third party in-kind contribution.
             • 	 Value of each third party in-kind contribution (see 15 CFR Part 14.23 or 15 CFR
                 Part 24.24 and the applicable cost principles, OMB Circular A-21, A-87 or A­
                 122).
                                                                                                       .. 

             • 	 If pers01mel time is being contributed: 

                           List of personnel 

                           Projects/tasks worked 

                           Dates worked 

                      • 	 Number of hours
                           Hourly salary rate and allowable fringe benefits paid
                           Certified time and attendance records
             • 	 Any necessary scopes of work and contracts that include pnce or cost
                 information.


12
   Exhibit 1. America Competes Act, Pub. L. No. 110-69, ~ 3003(a)(3)(C), 121 Stat. 587 (2007). 

13 !d. 

14
   H. Rcpt. 110-289 at 16 (emphasis added). 

15
   See 153 Cong. Rec. S5074 (Apr. 25, 2007). 

16
   See Exhibit 3A at 5-6, 2005 MEP General Tenns and Conditions. 



CMTC Response to Draft Audit Report No. DEN-18572 	                                                6
              • 	 Percentage oftime that the contribution was used to support the MEP Project. If
                  the percentage of time is 100%, 40 hours per week dedicated to the MEP
                  project, it is considered to be a full time personnel under 15 CFR Part
                  290.4(c)(4). Therefore, the 50% in-kind limitation under 15 CFR Part
                  290.5(c)(5) does not apply.

         Third Party In-Kind Contributions must be evidenced by written
         documentation that is signed by the contributor and Center that desctibes
         the contribution, its value, when and for what purpose it was donated. The
         Center must provide an acknowledgement of the contribution and include
         all the information required by IRS Instructions for Form 8283. 17

         Imposing the standards listed above is inappropriate for two reasons. First, GTC #14
was not incorporated in to the award until July 11, 2006. 18 Second, the GTCs were outside the
scope ofNIST's authority because they impose more stringent requirements than the
govemment-wide grant administrative common rules without prior OMB approval, in violation
of 15 C.F.R. § 14.4, and are more restrictive than the federal cost principles. In November 2009,
NIST removed these onerous time-keeping provisions. 19 Given that NIST lacked auth01ity to
issue a tenn inconsistent with govemment-wide requirements, it should not be enforced against
CMTC.

        The GTCs should not be enforced legally or contractually against CMTC. The audited
period of July 1, 2005 through March 31, 2007, covers three separate perfonnance periods: 1)
July I, 2005 through December 15,2005, 2) December 15, 2005-June 30,2006, and July 1, 2006
through June 30, 2007. NIST imposed the GTCs unilaterally and retroactively through the
entire audited period even though the term was issued in the middle of the second performance
period. New contract tenns cannot be unilaterally imposed by the govenunent and applied
              20
retroactively. Therefore, the tenn cannot be applied to CMTC by the auditor for the petiod
when there was no regulatory or contractual obligation to comply with the additional
requirements.

        GTC #14 dictates how Centers must document in-kind contributions for purposes of their
matching requirement and requires more information than specified in 15 C.F.R. § 14.23(h)(5).
The new term required that claimed personnel time include a list of personnel, specific projects
and tasks, dates on which the individual worked, the number of hours contributed, hourly and
salary rate, allowable fringe benefits paid, and certified time and attendance records. This tenn
essentially attempted to compel third parties who received no federal funds to significantly alter
their existing accounting systems in order to comply with unauth01ized requirements. The Cost
Principles provide for a number of different methods to account for time and effmi according to



17  !d. 

18
    See Exhibit2C, Cooperative Agreement Award No. 70NANB5Hll81, Amendment# 3. 

19
    See Exhibit 3C, 2009 MEP General Tem1s and Conditions. 

~ 0 See Pennhurst State School & Hospital v. Halderman, 451 U.S. I ( 1981) (refused to recognize conditions and 

obligations not expressly stated on the face of the relevant assistance statutes, regulations and forms of agreement.) 

Bennett v. New Jersey, 470 U.S. 632 (1985) (holding that changes in substantive requirements for federal grants 

generally should not be applied retroactively). 



CMTC Response to Draft Audit Report No. DEN-18572                                                                      7
                   . . ?I
t11e type o f orgamzatwn.­

       The documentation requirements in the revised 2005 MEP General Tenns and Conditions
deviate from the requirements of 15 CFR § 14.23 and the federal cost principles without OMB
approval and are stricter than the applicable regulations. Pursuant to 15 CFR § 14.4, when the
agency requires more restrictive requirements than the common mles, it must first obtain OMB
approval. No such OMB approval was granted. In fact, in the November 2009 MEP General
Terms and Conditions these very requirements were removed. These latest changes followed
lengthy discussions with Centers, including CMTC, during which the Centers explained that it
was impracticable for Centers to compel third parties to comply with the GTCs as written. Thus,
the GTCs were stymieing the Centers' ability to work with partners as policy dictated and
mission requirements necessitated. 22

        Finally, the third-party contributor agreements and the Subrecipient Agreement were
included in CMTC's Operating Plan. NIST imposes its own review and approval procedures in
the Operating Plan Guidelines. 23 Generally, third party contributors are not required to have
agreements with recipients nor are their contributions required to be approved in advance by the
agency. The A-ll 0 provisions relating to prior approval specifically enumerate the instances in
which prior approval is required. 24 They include: (I) change in the scope or the objective, (2)
change in a key personnel, (3) prolonged absence or 25 percent reduction in time by the
approved project director or principal investigator, (4) need for additional Federal funding, (5)
transfer of amounts budgeted between direct and indirect costs and vice versa, (6) inclusion of
costs that require prior approval in accordance with the applicable cost principles, and (7)
transfer of funds allotted for training allowances (direct payment to trainees) to other categories
             25
of expense. Additionally, the regulation states, "For nonconstmction awards, no other prior
approval requirements for specific items may be imposed unless a deviation has been approved
            26
by OMB." Subrecipient agreements, third-pmiy in-kind contributor agreements, and vendor
contracts are not included in the list and to our knowledge, no deviation has been granted by
OMB.

        Nevetiheless, the NIST-approved CMTC Operating Plan for the audited period clearly
outlines the collaborative activities of CMTC and its pminers and describes the costs that its
partners were to incur (and did incur) in furtherance of the Center's mission. This Operating
Plan, including the description of the partnerships, was reviewed and approved by the NIST
Grants Officer, the Program Officer, and legal counsel prior to issuance of the awards. Approval
from the Grants Officer is additional support for the proper inclusion of the costs incuiTed as pmi
ofthe Center's cost share. OMB Circular A-122, codified at 2 C.F.R. Pmi 230, defines "prior
approval" as:

21
   See 2 C.F.R. Part 230 App. B ,J8(m) (outlining allowable methods for non profit organizations to account for 

personal services), 2 C.F.R. Part 220 App. A ,I J.l 0. (discussing compensation for personal services for institutions 

of higher education). 

22
    See Exhibit 3C, MEP General Tenns and Conditions, November 2009 # 18 (outlining the documentation 

requirements for third party in-kind contribution in the most recent set of general terms and conditions). 

23
   See Exhibit 4A, MEP Operating Plan Guidelines (2005). 

24
   15 C.F.R. ~ 14.25(c)(l )-(7). 

25 /d.
26
   Jd. at~ 14.25(d).


CMTC Response to Draft Audit Report No. DEN-18572                                                                      8
                 [S]ecuring the awarding agency"s pennission in advance to incur
                 cost for those items that are designated as requiring prior approval
                 by this pm1 and its Appendices. Generally this permission will be
                 in writing. Where an item of cost requiring approval is specified in
                 the budget of an award, approval of the budget constitutes approval
                 of that cost.

2 C.F.R. § 230.25.      If the reported expenditures fall within the "approved costs" they should be
accepted.

III.    QUESTIONED SUBRECIPIENT COSTS

        Cerritos College Technology Division ("Cen·itos"), through its agreement with CMTC,
furthers the MEP mission by providing specialized, in-depth training to meet the needs of
manufacturers in California. Cerritos has more than fifty full-time and part-time faculty
members in its Technology Division, which allows the school to offer a wide array of
manufacturing courses, many of which are not available at other schools in the area. Cerritos'
unique programs include training in composites and plastics, computer integrated manufacturing,
tooling and product development, welding, heat treating of metals, testing applications and
procedures, and woodworking. Working with Cenitos, CMTC utilizes the existing resources of
Cerritos rather than duplicating efforts by creating its own training programs and student base.

        The Draft Audit Report questions the entire amount of the $4,800,000 in claimed project
costs for CerTitos. The Draft Audit Rep011 recommends the disallowance of the entire amount of
cost share claimed on the grounds that Cerritos and CMTC "fail to disclose current financial
results accurately because they are based on estimates rather than actual costs, and there is no
process in place for reviewing specific costs incurred under the subaward to detennine whether
they are reasonable, allocable and allowable." 27 The Draft Audit Rep011 asse11s that these costs
are unallowable because they were not kept in accordance with the financial management
standards of 15 C.F.R. § 14.21, made applicable to Cenitos through the flow-down provision of
15 C.F.R. § 14.5. 28 The Draft Audit Repo11 fm1her asserts that CMTC failed to include certain
                                                      29
prescribed provisions in its agreement with Cen·itos.

        A.       Required Provisions for Subrecipient Agreements

        According to the Draft Audit Report, CMTC failed to include a number of required
provisions found in the MEP Operating Plan Guidelines, dated March 2005, that applied to
                °
subrecipients. 3 First, the Draft Audit Rep011 notes that CMTC failed to include in its agreement
with CeiTitos the CFDA category, the prime award number and perfon11ance period as required
by the guidelines. The Draft Audit Repm1 also asse11s that CMTC failed to include "applicable
flow-down provisions and clauses from the prime award."

27
   Draft Audit Report at 3. 

2
 s Draft Audit Report at 2. 

29
   Draft Audit Report at 3. 

30
   See Exhibit4A at 14, MEP Operating Plan Guidelines (2005). 



CMTC Response to Draft Audit Report No.   DEN-U~572                                                9
         As discussed in Section II, supra, NIST released new Operating Plan Guidelines that
redefined partnership agreements in March 2005. The MEP Center renewal applications were
due in April 2005, giving CMTC exactly one month to absorb and implement the new
guidelines, which substantially differed from previous program guidance. Specifically, the new
guidelines eliminated CMTC's ability to create ''partnership" agreements by memorandum of
understanding, as done in past years, instead limiting Centers to a choice between third-party in­
kind contributors ("TPCs") and subrecipients ("SRAs"). Due to the unique and extremely close
relationship between Cerritos and CMTC, and the fact that CMTC provided some financial
support to Cerritos, CMTC felt that it should choose "subrecipient." Since the audited period,
Cerritos and CMTC have clarified their relationship, and as a result, Cerritos is now designated
as a third-party in-kind contributor.

        While certain flow-down provisions, the CFDA category, and prime award number are
missing from the subrecipient agreement, these omissions did not have an impact on the validity
of Cerritos' expenditures claimed as match. Regardless of the label or the missing terms of the
agreement, CMTC and Cerritos maintained sufficient documentation to support the claimed
costs. Based on the parties' agreement, CMTC bore the burden of assuting that only costs
allowable under the tenns of its award were reported by Cerritos and ultimately claimed by
CMTC and reported to NIST as non-federal cost share.

         B.       Cerritos' Costs Claimed by CMTC Meet Fin ancial Management Standards

         The Cenitos agreements in effect for the award period clearly outline the collaborative
activities of CMTC and Cerritos, describing the specific costs that Cerritos will incur in
fmtherance of the MEP mission? 1 As discussed in Section II, supra, the agreement was subject
to prior approval. As such, the agreement was reviewed and approved by authorized NIST
officials including the NIST Grants Officer, the NIST Program Officer, and legal counsel. 32 The
Draft Audit Report does not, however, recognize or address this prior approval, despite the fact
that it was brought to the auditors' attention during the on-site review.

        The Ceni tos proposed budget was developed using the budget categoties similar to those
contained in the Operating Plan Guidelines.33 However, the auditor cri ticized Cerritos' budget
because it was based on "broad category reductions from total division costs, rather than
accumulations of actual costs according to budgeted line items." This criticism appears to relate
to the subtraction of the salary costs for cosmetology facu lty from the overall costs ofthe
Technology Division salaries. The courses Cenitos offers to manufacturers as part of the MEP
program are within the Technology Division, as is the cosmetology program. As cosmetology is
unrelated to manufacturing and the MEP program, the salaries for cosmetology program faculty
and ~ f identifiable direct costs associated with the cosmetology program were removed
from Cen·itos' expenditures. Because CetTitos was using a state-mandated proprietary software
system that made it nearly impossible to manually remove the cosmetology salary costs, Cenitos

11
' See Exhibit 5 at 51 -54, CMTC Operating 2006 Operating Plan and Exhibit 6 at 61-67, CMTC Operating 2007 

Operating Plan. 

· ~ See Exhibit 2A, Amendment# I to Award. 

1

31
  · See Exhibit4A at 17, MEP Operating Plan Guidelines (Mar. 2005).




CMTC   Re~ponse   to Draft Audit Report No. DEN-1 8572                                                        10
 conducted a study to dete1mine the proper allocation of salary costs and reduced the division
 costs accordingly. This method for allocating salary costs is pennissible pursuant to 2 C.F.R.
 220 App.A Section J. I O.b.(2)(c).

         However, based on the fact that Cenitos made a ·'broad category reduction" fl.·om the
salary component of its budget, the auditors seem to assume that the same practice was used to
determine other costs. The Draft Audit Report questioned Cenitos' expenditures on the ground
that its "practice of claiming subaward costs based on estimates, rather than actual costs incuned
under the subaward, violated administrative principles." While the budget, out of necessity, was
developed based on estimates, past experience, and projections for the coming year, Cenitos'
expenditures reported to CMTC are based on actual costs and supported by underlying
documentation. Cerritos submitted quarterly expenditure repo1is from its accounting system
using cost categories which varied somewhat from the cost categories in the budget submitted
                               34
with the renewal application. Nevertheless, the costs claimed as match by CMTC were based
on the financial reports generated by Cerritos, which were actual expenditures, not budget
"estimates. "35

         Based on the enoneous assertion that the claimed costs were merely "estimates" the
auditor also assetis violations of several administrative principles contained at 15 C.F.R.
§I 4.2 I." Draft Audit Report at 2. The Draft Audit Repmi alleges that Cerritos did not maintain:

         • 	 Accurate, current, and complete disclosure of the financial results of each federally­
             sponsored project or program (Section I 4.21 (b)( I));

         • 	 Comparison of outlays with budget amounts for each award (Section I 4.2 I (b)( 4 )); and

         • 	 Written procedures for detennining the reasonableness, allocability, and allowability of
             costs in accordance with applicable cost principles and the terms and conditions of the
             award (Section I4.2l(b)(6)).

Each of these items is addressed below.

                    1.      Accurate Disclosure of Actual Costs Incurred

       As noted above, authorized NIST officials reviewed and approved the agreement and the
proposed budget submitted by CMTC and Cerritos. The agreement included a detailed Scope of
Work (Schedule A), a detailed description of Financial and Programmatic Monitoring (Schedule
B), Subrecipient Standard Tenns and Conditions (Schedule C), and Federal Funding Compliance
Assurance and Ce1iification (Schedule D). 36 Schedule B requires Cerritos College to submit the
following documentation to CMTC each quarter:



     4
·' Compare Exhibit 7. CeiTitos Budget ll'ith Exhibit 8B at 2. CeiTitos Quarterly Expenditure Report and Supporting 

Documentation. 

" See Exhibit 8A-8G. CeiTitos Quarterly Expenditure Report and Supporting Documentation. 

16
· Sl!l! Exhibit 9. CeiTitos Subrecipient Agreements. 





CMTC Response to Drati Audit Report No. DEN- I 8572                                                              I1
         (I) Financial documentation including validation of payroll costs associated with the
         activities and other services not otherwise recorded;

         (2) Po11ions of the general ledger as related to the activities described herein; and/or

         (3) Invoices, purchase orders, or related documentation ve1ifying incurred costs.

Cerritos submitted documentation of actual expenditures incu1Ted by Cerritos in furtherance of
the MEP mission. Using the supporting documentation submitted by Cerritos, including but not
limited to, general ledgers, vendor invoices, and purchase orders, CMTC followed detailed
procedures to ensure that the costs were reasonable, allocable, and allowable. CMTC also
conducted periodic site visits to ensure that records were being kept by Cerritos in accordance
with the agreement.

         Cerritos used state funds and fees paid for courses to support its costs. To verify the costs
incuned by Cerritos in carrying out the subrecipient agreement, CMTC compared Cerritos'
quarterly reports to Cerritos' general ledger. Cerritos' system assigned a number code to each
MEP program component: 02600 for state-paid training, 77000 for Manufacturer-paid training,
077320 for Center for Applied Competitive Technologies (CACT)-paid training and 77700 for
its largest manufacturing client. In this manner, Cerritos (and CMTC) can easily see the funding
source and recipients of the trainings. The costs under each code are then broken out according
to budget line items, such as personnel (the instructor), supplies, etc. The total costs are then
compared to detailed sections of the general ledger reflecting only one program component (e.g.,
state-paid training, coded as 02600).

        The quarterly expenditure report fi·om October 2005-December 2005 demonstrates this
         37
process. The qua11erly report breaks down the expenditures for manufacturer-paid training by
budget line items. To verify Cen·itos' costs, CMTC took the costs incun·ed for the budget line
item (e.g., Instructional Salaries, Non-instructional Salaries, Supplies and Materials, Other
Operating Expenses and Services) and compared them to the costs in the detailed section of the
general ledger corresponding to that program component (e.g. , state-paid training, manufacturer­
paid training, CACT-paid training, largest manufacturing client). For instance, Cerritos                          ..   ·•

                                                                                                                  I
expended ~ for supplies and materials for manufacturer-paid training ( CQded as 77000)                            I
during this quarter. CMTC compared tl}e entries tor expenditures for supplies and materials in
the detailed general ledger section against a random sam pling of the invoices and purchase
orders from that qua11er. 38 CMTC also questioned Ce1Titos about the invoices, purchase orders,
and other randomly sampled documentation. This process was repeated tor each budget line
item, resulting in a thorough, accurate review of actual expenditures of CeiTitos in fu lfilling its
obligations under the subrecipient agreement.

        This procedure, to which the parties agreed in writing and the results of which were made
available to the auditor, reasonably demonstrates that the non-federal dollars expended by
Cerritos were actually incuned and expended to fU11her the MEP statutory mission. lt is the
pa11ies to an agreement who are in the best position to know what they intended by the

n See Exhibit 88, Cen·ito~ Quarterly Expenditure Report and Supporting Documentation. 

'~See Exhibit 88 at 39-52 and 70-90. Cerritos Quarterly Expendirure Repon and Supporting Docume111ation. 



CMTC Response to Draft Audit Report No. DEN- 18572                                                           12
agreement. 39 During site visits, CMTC verified that the claimed costs were actually incuned,
that the activities benefited the CMTC Center consistent with its Agreement with NIST, and are
in futtherance of the MEP mission.

                  2.       Comparison of Actual Outlays with Budgeted Amounts

        The Draft Audit Report states that CMTC and CetTitos failed to use the subrecipient's
line item budget as a management tool because "subaward claims were based on broad category
reductions from total division costs, rather than accumulations of actual costs according to
budgeted line items." 40 The line item budget included in the Cenitos agreement acts as a
guideline for the pmties and NIST; it is merely a projection of expenditures to be incurred in the
coming months. The proposed budget is used to identify cost categories, estimate the
expenditures, and to ensure that there are no significant changes to the budget that might require
agency approval or fall outside the scope of the approved agreement. 41

        CMTC acknowledges that the line item budget used in Cerritos' quarterly reports is not
identical to the line item budget included in the subrecipient agreement. Cerritos' expenditure
reports were produced using its own accounting system that used categories different from those
used in the subrecipient budget and CMTC' s budget. However, the costs claimed by CMTC
were those contained in the quarterly reports that evidenced actual expenditures. Cen·itos'
financial management systems are not precluded from meeting the requirement of§ 14.21 simply
because the budget line items contained in the agreement do not use exactly the same
nomenclature as in the quarterly expenditure repmis. To the contrary, Cenitos provided CMTC
documentation of actual costs, which it provided to the auditor, and CMTC has a process in place
for detennining that those specific costs are reasonable, allocable, and allowable.

        CMTC monitored Cerritos' actual expenditures, or "outlays," against the budget in the
subrecipient agreement by reviewing the quarterly expenditure repotis. Before entering into the
subrecipient agreement, CMTC met with Cerritos to review Cerritos' annual operating budget
and to identify specific cost categories allocable to the MEP activities under the agreement.
CeiTitos' budget contained the following categories: Salaries (instructional and noninstructional),
Employee Benefits, Travel, Supplies and Materials, Marketing & Outreach, Subcontracts,
Equipment (Purchase/Lease), and Facilities. CciTitos' budget was different from CMTC's budget
is several insignificant ways. 42 First, Cerritos had a "Salaries" category rather than "Personnel."
Second, Cerritos had "Marketing & Outreach" as its own category. Third, the Cenitos
"Subcontracts" section was not broken down as was CMTC's "Contracts" section.

       CetTitos submitted quatierly program expenditure reports that clearly stated the total
expenditures by cost category: Instructional Salaries, Noninstructional Salaries, Employee
Benefits, Supplies and Materials, Other Operating Expenses and Services, Capital Outlay, and

'~See National Urban League, Inc., United States Department of Health and Human Services Departmental Appeals 

Board. No. 294 (April 30, 1982) (adopting grantee's interpretation as reasonable, and giving it more weight than the 

Agency's interpretation since the Grantee was a party to the agreement). 

~ 0 Draft Audit Report at 3. 

~ 1 See Exhibits 2A and 21, Amendments to Award (providing approval for subrecipicnt agreement. which included 

proposed budgets). 

42
    Compare Exhibit 7, Cerritos Budget with Exhibit 6 at 46, CMTC 2007 Operating Plan. 



CMTC Response to Drat! Audit Report No. DEN-18572                                                                 13
Other Outgo. CMTC then compared those expenditures against the budget incorporated into the
subrecipient agreement. Despite the differences in budget line items, Cenitos' cost categories
represent costs allocable to its MEP activities. Thus, the assertion that CMTC did not compare
actual outlays to budgeted amounts is without merit.

         3.        Written Procedures for Determining Allowability

         The Draft Audit Report asserts that Cerritos had "no process in place for reviewing
expenditures under the subaward to detennine whether they are reasonable, allocable, and
allowable." 43 In fact, CMTC and Cenitos agreed that CMTC would retain primary responsibility
for reviewing Cerritos' costs for allowability. This procedure complies with the authorizing
statute, which prevails over the general administrative provisions in the event of a conflict. 44 As
discussed in Section I., supra, the statute explicitly and unambiguously places the primary
responsibility of detennining reasonableness and allocability on the Centers themselves.
Additionally, the NIST Grants Officer specifically approved the reasonableness and allocability
of expenditures on the proposed activities. 45 The determinations made by CMTC and approved
by NIST should not be overtumed unless the costs are completely irrelevant to the program or
have no basis in fact.

        CMTC determined cost allowability using written procedures that apply federal cost
principles. 46 CMTC included the written procedures for reviewing Cerritos' costs in the
subrecipient agreement and maintained a policy and procedure addressing the review of
contributions. 47 As discussed in Section III.B.l, supra, Schedule B of the Subrecipient
Agreement required Cerritos to produce financial documentation quarterly and to cetiify that
costs claimed were "derived from non-federal sources." CMTC's written policy regarding in­
kind contributions required that the department heads verify that expenditures were directly
related to CMTC's mission. 48 Based on the policies in place, CMTC reviewed Cerritos' program
expenditure repotis for cost allowability at least qumierly. Through the steps described above,
CMTC worked closely with Cenitos to ensure that expenditures claimed by CMTC were
reasonable, allocable, allowable, and derived from non-federal sources.

        Furthem1ore, the costs claimed in Cenitos' budget were allowable under the cost
ptinciples. Cerritos follows generally accepted accounting principles ("GAAP"), undergoes an
independent financial audit annually, and maintains close contact with CMTC. Consistent with
this process, CMTC detennined that the expenditures of Cenitos on behalf of small- and medium
manufacturers were "programmatically reasonable and allocable" and were therefore "includable
as a portion of the Center's contribution.'' 49 Therefore, there is no basis for the auditors'
questioning the entire amount, or $4,800,000, of subrecipient cost contributions.

41
 · Draft Audit Report at 3. 

44
   See United States r. Coates, 526 F. Supp. 248 (E.D.Cal Nov. 19, 1981 ), a[{"d in part, re1·ersed in part, 692 F.2d 

629 (9' 11 Cir. Nov. 19. 1982) (stating that regulations should not contradict the plain language ofthe underlying 

statute). 

45
   See Exhibit 2A. Amendment #I (2006) and Exhibit 21, Amendment #9 (2007) (showing NIST approvals). 

46
   See Exhibit 9 at II (Schedule B), Cerritos Subrecipient Agreements . 

.n See Exhibit 10, CMTC's Written Policy for In-Kind Contributions. 

4S /d.
40
   Exhibit I. America Competes Act. P.L II 0-69. Sec. 3003, 121 Stat. 587 (2007).


CMTC Response to Draft Audit Report No. DEN-18572                                                                     14
IV.      Q UESTIONED THIRD PARTY IN-KIND CONTRIBUTOR COSTS 





                                                                 The total questioned costs for third
party contributors was $6,584,182. The auditors made four separate contentions with respect to
the third party in-kind contributions: 1) the costs for the in-kind contributions were not donations
to CMTC and were merely the regular activities of the partners, 2) the partners did not meet the
requisite documentation and reporting requirements under the General Terms and Conditions,
Aptil 2006, 3) a portion of the costs were attributable to a period prior to the award period, and
4) CMTC had a questionable accounting treatment of third party in-kind contributions. It is
unreasonable given the activities that were carried out that the auditor questions one hundred
percent of the matching contributions of the partners.

        Despite the auditor 's assertions, the costs from the third party in-kind contributions are
allowable. The allowability of costs should be determined in accordance with criteria under 15
C.F.R. § 14.23. Third parties that do not receive federal funds are not subject to the
administrative regulations or the cost principles. CMTC is responsible for compliance with these
provisions. First, each CMTC partner provided goods or services that benefited small- and
medium-size manufacturers in a manner that futihered the MEP mission. Second, CMTC
provided all necessary documentation to comply with the applicable documentation and
reporting requirements. Third, although costs incurred prior to the award period are disqualified,
CMTC has additional in-kind match from patiners for the same period that were not previously
reported to NIST. Finally, CMTC followed GAAP in its treatment of in-kind contribution on its
audited ti nancial statements.

         A.       Overview of Third Party In-Kind C ontributor s

                  1.


       The partnership with                    furthers the MEP mission by providing education
and certification to students interested in                 and marketing of CMTC services to
small- and medium- size manutacturers. 5 t                     as part of the California Community
College system, has been designated by the state of Califomia as the regional center to assist
manufacturers in southem California         providing consultation, education, customized training
and technical assistance.                   receives most of its funding from the State of Cali fornia
and receives no federal funding. CMTC continues to receive third party in-kind contributions
from




50
                  2.
                           -
   See Drqf; Audir Reporr at 3-4. The auditors nore thai a nonstatisrical sample of five contributors was selected and 

the toral in-kind contriburion for rhc audited period from third panies was.
enrire amount of costs supplied by the five selected contributors. 

                                                                                         . The auditors quesrioned the 

51
   See Exhibit II ,                                      Memoranda of Understanding FY06 at 1-2 and FY07 at 1-2. 



CMTC Resp0nse to Draft Audit Report No. DEN- 18572                                                                   15
        As a CMTC partner, -           provides marketing and outreach services to biotech and
biomedical manufacturers in San Diego and Orange County, California. -             is a trade
association of 540 member companies devoted to the life science industry and is tax-exempt
under§ 501 (c)(6) of the Internal Revenue Code. 52               ·      source of funding is




                                                                                                       -)
membership dues and it docs not receive federal funds .            continues to serve as a third
party in-ki nd contributor to CMTC.

                       3.

        Through its partnership with CMTC, ­             provides a variety of services to medium
and small manufacturers for free or at low co~ is a non-profit local economic
development and business leadership organization that provides a variety of services to
businesses in southern Califomia with the goal of assisting those businesses to grow and retain
jobs. In connection with its charitable purpose, -          is tax-exempt under section 50 l(c)(3) of
the Internal Revenue Code. -          is still provides third party in-kind contributions to CMTC.

                       4.

       Through the work o~'s Economic and Business Development group, its partnership
with CMTC futihered the MEP mission by providing services to small- and medium-size
manufacturers to promote their energy efficiency, productivity and profitability. 54 • is an
investor-owned utility company offering guidance, resources, and assistance to manufacturers
and other businesses. -   'sin-kind pattnership with CMTC ended June 30,2007.

                       5.

         The -        partnership with CMTC benefited small- and medium- size manufacturers
by providing consulting and training services to promote world trade. - is a tax-exempt§
50 I(c)( 6) member organization comprised of small- and medium-size manufacturers, businesses
and other organizations committed to world trade. 55 During the audited period, ­
received no federal funding. -          s in-kind partnership with CMTC ended June 30, 2009.




          B.           CMT C's Third Pa rty In-Kind Contributions are Allowable Costs

       The auditor concluded that the cost contributions were not donations to CMTC but
merely were the regular activities of the third patties. Audit Report at 4. The auditor ignored the

52
   S!!e Exhibit 12,             Memoranda ofUnder~tanding FYOS at 1-2, FY06 at 1-2 and FY07 at 1-2. 

~.' S!!e Exhibit 13,            Memoranda of Understanding FYOS at I -2 and FY07 at 1-2 (note these agreement-; cover 

the entire audited period). 

;.~ See Exhibit 14. ~ emora nda of Understanding FYOS at 1·2 and FYO? at 1-2 (note these agreements cover the 

entire audited period). 

~~See Exhibit 15,               Memoranda of Understanding.


CMTC Response to Draft Audit Report No. DEN- 1!~5 72                                                               16
statutory underpinnings of the MEP program, specifically clarified by Congress in 2007 that
outline how partnering relationships should work. MEP Centers are required by statute to fonn a
network ofpartnering organizations to assist them in reaching small- and medium-size
manufacturers, thereby furthering the impact of the Federal investment. 56 CMTC fulfills this
statutory requirement in part by partnering with other intermediary organizations whose mission
is aligned with MEP and whose expenditures are eligible as third party in-kind contributions. 5 7
The program statute authorizes CMTC to use the expenditures of like-minded local organizations
to count toward the two-thirds non-federal cost share. Partnering organizations of an MEP
Center may be entities in private industry, universities, and State governments. 58 The Centers'
partners have the same overall mission objectives and share common values, approaches, and
targeted market segments with the Center. Without "regular" activities that benefit
manufacturers, a partner's expenditures would not be allocable to the program.

        The work of the partners is integrated with the MEP Centers to increase the efficiency
and success of the MEP program. MEP partners work with the Center to reach additional
manufacturers, provide additional services, and transfer teclmology to small- and medium- size
manufacturers to fulfill the core mission of the MEP Centers stated in 15 U.S.C. § 278k. The
pminers' work is enhanced through its relationship with CMTC and vice versa. Together CMTC
and the patiner are able to coordinate and collaborate on activities that each would conduct
entirely on its own if it were not for the partnership. Rather than expend resources on finding and
recruiting manufacturers to participate in the program, CMTC joins with partners who have
established networks of manufacturers ready to benefit from MEP. In this manner, the Center
uses the existing resources of the partner to further the impact of the Federal investment by
reaching manufacturers it would not, on its own, have the ability to reach and to provide
additional services the Center could not otherwise offer. 59

        The Draft Audit Repoti applies a narrow view of third party in-kind contributions.
During the audit exit interview, the auditor repeatedly stated that he did not see a specific invoice
to the MEP program for the services provided and therefore, there was no true donation of goods
or services to CMTC. The "donations" of the intermediaries is not to the federal recipient
organization, but to the manufacturers. The regulation defines a third party in-kind contribution
as,

                  The value of non-cash contributions provided by non-Federal third
                  parties. Third party in-kind contributions may be in the fom1 of
                  real property, equipment, supplies and other expendable propetiy,


56
   See supra Section I. 

57
   America Competes Act. P.L. 110-69. and Sec. 3003(a) (3)(C). See also Senator Snowe's statements at supra II. 

j~ !d. 

59
   The program regulation. 15 C.F.R. Part 290, directs Centers to leverage their resources by concentrating on 

approaches that are broadly applicable to a range of organizations and regions. 15 C.F.R. ~ 290.3(e). The regulation 

defines leverage as ·'the principle of developing less resource-intensive methods of delivering technologies (as when 

a Center staff person has the same impact on ten fim1s as was fonnerly obtained with the resources used for one, or 

when a project once done by the Center can be can-ied out for dozens of companies by the private sector or a state or 

local organization)." !d. See also 15 U.S.C. ~ 278k and 15 C.F.R. § 290.3 (regarding ·'leveraging•· federal 

resources). 



CMTC Response to Drati Audit Report No. DEN-18572                                                                  17
                   and the value of goods and services directly benefiting and
                   specifically identifiable to the project or program .60

This standard in no way requires that goods and services go directly into the Center as the
auditor suggests. Instead, the regulatory definition, similar to the statute, only requires that
services directly benefit and be specifically identifiable to further the mission of the MEP
program. Moreover, the contribution need not be distinct from the third party's own regular
activities and operations. For example, if the third patty contributor allowed a recipient to use
facilities the third party was already required to pay for in its regular operating costs, the
contribution ofusing the space would still meet the criteria of the regulatory definition of third
party in-kind contribution.6 1 The only relevant inquiry would be whether the recipient would
have had to pay for the use of a space had the third party not provided its space. Each third party
in-kind contributor tailored their regular activities, to specifically serve small- and medium-size
manufacturers in furtherance ofthe MEP mission and at no cost to CMTC. The activities that the
partners engaged in for the benefit ofthe MEP program were identified in the CMTC Operating
                                                                                   62
Plan and the Memoranda ofAgreement, all of which were approved by NIST.

         C.        Costs Prior to the Award Period

       The auditor noted that portions ofthe contributions claimed for ~ and ­
-    were costs that were incurred prior to the start date of the award period . The auditor's
support for the questioned cost of -          is an in-kind expenditure report from -          that
covers the period January I, 2005 to June 30,2005, which is prior to the start of the award period
on July I, 2005. CMTC concedes that the period during which these costs were incurred is
outside the audit period but that the costs were posted during the audit period. Therefore, CMTC
concurs in the auditor's finding that these costs should not be charged to the award period in
question.

        Regarding the pre-award costs for              in the amount of ~. CMTC
concedes that the amount was counted                     cost share - once in the pre-award
period and again in the annual report from                 further concedes that a portion of
those costs were incurred prior to the            The quarterly report covered the months of
May, June, and July, 2005. The award began July I, 2005. Assuming an equal amount of costs
was incurred in each month, ~ should not be charged to NIST.

        However, CMTC had sufficient additional matching costs from other pattners that were
not repmted to NJST during the award period. These costs can now be used as substitute
matching costs to resolve the deficiency that would otherwise exist as a result of the
disquali fication of the pre-award costs. CMTC has excess match available in the amount o f
-            · which is more than sufficient to cover the ~ from -                 and the


•.o 15 C.F.R. *14.2(nn) (emphasis added).
hi /d.
11
 '  See Exhibit 5 at48-50, Appendices 6-8, 6-D, 6-1, 6-J, CMTC Operating 2006 Plan. See Exhibit 6 at 58-60, 

Appendices 6-B. 6-D, 6-E. 6-K. 6-L. CMTC Operating 2007 Plan, see also supra Section II. (outlining the 

~ignificance of agency pre-approval ofspecific costs). 

"·' Draft Audit Report at 3. 



CMTC    Re~pon~e   to Draft Audit Report No. DEN-I ~5 72                                                        18
~ from                          . A table of the excess match and the providing pattners is
included in this report at Section IV.E, supra.

          D. 	     CMTC'S Third Party In-Kind Contributors Maintained Adequate Records
                   for Reporting Match

                   I. The Appropriate Standard is 14.23

         CMTC uses the conect standard for reporting the matching costs of its third party
contributors. 64 The appropriate standard to address the third party in-kind costs is 15 C.F.R.
14.23. 65 15 C.F.R. §14.23(a)(4) states that the cost contributions must be "allowable under the
applicable cost principles." This does not mean that a third party contributor must change its
accounting practices and procedures or document its salary expenditures in accordance with
procedures described in the cost principles or the tenns of the cooperative agreement. The
standard that the recipient must meet in documenting third party in-kind contributions is "to the
extent feasible" by the same methods generally used by the recipient for its own employees." 15
C.F.R. § 14.23(h)(5). The basis for the "valuation for personal service, material, equipment,
buildings and land shall be documented." !d. CMTC met these standards. The recipient is
responsible for detennining the allowability of the cost contributions as permitted under the
tenns of its award. CMTC excludes any partner expenditures that are not allowable under the
cost principles and maintains the documentation supporting all other costs it claims as non­
federal share under its cooperative agreement.

       CMTC identifies the partner operating costs that support activities benefiting
manufacturers within the mission of MEP. CMTC partners use their existing accounting
systems, but establish a methodology to identify only costs related directly to its activities on
behalf of manufacturers; many ofthe services provided to its entire membership directly benefit
its manufacturing members. CMTC established a reasonable basis for the valuation and met the
documentation standard for in-kind contributions under 15 C.F.R. § 14.23(h)(5).

        When the auditor visited each third party, he was more concemed with the relationship
between the party and CMTC rather than reviewing the detailed financial documentation
maintained by CMTC and the third party contributors. The auditor seemed to ignore the
quarterly expenditure reports and did not inquire about anY. back-up documentation, or ask about
the policies and procedures utilized to produce the quarterly financial report. Nor did he accept
the process CMTC applied to detennine the reasonableness, allowability, and allocabi lity of each
cost prior to including the in-kind contributions in CMTC's SF-269.M Each partner utilized its

64
     See supra Section II. (discussing the improper application ofGTC #14 by audi tor).
65
    15 C.F.R. 14.23 that states:
           a) All contributions, including cash and third party in-kind, shall be accepted as pa11 of the recipiem's cost
           sharing or matching when such contributions meet all of the following criteria:( I) Are verifiable from the
           recipient's records; (2) Arc not included as contributions for any other federally a~~isted project or program;
           (3 ) Are necessary and reasonable for proper and ctlicient accomplishment of project or program objectives;
           (4) Are allowable under the applicable cost principles; (5) Are not paid by the Federal Govemment under
           another award, except where authorized by Federal statute to be u:;ed for cost sharing or matching: (6) Are
           provided for in the approved budget; and (7) Conform to other provisions of this part. a~ applica ble.
o1> See Exhibit 16. CMTC Fom1 SF-269s from audited period.



CMTC Response to Drafl Audit Report No. DEN-18572                                                                      19
own internal methorHogy to produce the quarterly financial reports documenting their
expenditures in fun. . ance of the MEP program for the given period. The next sections provide
a brief summary of those methodologies.

                                  a.


                                         is subject to an annual audit under OMB Circular A-133.
It complies with the administrative requirements for Institutions of Higher Education, as well as
the Cost Princi les for Educational Institutions 2 C.F.R. Part 220. Although -
                       receives federal funds,                    is a separate program with a budget
that is comprised solely of state funds and therefore is excluded from theA-133 audit. The ­
is located in a building off-campus, but in the general vicinity of the college. Through their
partnership, both organizations provide workforce                to manufacturers in Northern Los
Angeles County with minimal duplication of effort.                         has four full-time and four
part-time employees who provide                 administration and outreach efforts to recruit
companies for its                                        hires independent contractors to conduct
trainings either at                        ities or at the manufacturing company's site. CMTC
provides no funding to                   for these services.

                                          College accounting software but the accounting
function is maintained by the               The accounting function includes the review and
hiring of employees and vendors, approving payroll and vendor invoices, and generating
invoices to the State. The            College's fisca l services depa1iment issues payments to
employees and contractors.                maintains copies of all of its fina ncial records on site
prior to submitting them to        mumty College for processing and payment.

                        does not have a time-keeping system that tracks      · c daily hours for
full time employees assigned to specific projects. Instead the                utilizes a "negative"
payroll system. In a negative payroll system, hours are reported for time not worked. This
system is an accounting method acceptable under California law and commonly used among
community colleges in the state.67 The employees                      receive a full salaried
paycheck unless the employee takes time off without sufficient leave accruals. Hours not
worked, rather than hours worked, are submitted by the employee to the Program Director. The
PrcHrram Director then verifies that the time-off data is conect before           it to the
                      for processing. The Payroll department at the                         processes
the pay check. This is an exception-based payroll method.

                                             the in-kind contribution report from its accounting records each
                                        expenditures are related to the manutacturing employment training
             h p,·pt,..., .,.   costs are I 00% allowable under the grant. For the audit period in question,




67
   See Exl1ibit I 7 at 3. Compton Communitv College District Administratil·e Regulatiom (describing the "negati ve 

time reporting" documentation method). 

6
 s See Exhibit IS,                 Quarterly Expenditure Reports. 



CMTC Response to Draft Audit Report No. DEN-IS572                                                                  20
                  submitted two expenditure reports to CMTC.69 The reports include the period of
npr·+"'"""'ance, contact information, and expenditures by line item, including salaries and benefits,
supplies, subcontracts, travel, printing, postage, speaker fees, conference meals. equipment/lease,
and facilities. The expenditures come from records of expenses that are tabulated by
administrative personnel and the report is signed by the director                       The report
also includes the period of performance, contact information, scope work, and breaks down
the line item of salaries and benefits by name or employee ID, employee title, salary, percent of



                          b. ­
effort dedicated to in-kind activities, and benefits rate.



        As a tax-exempt organization, -
subject to reporting annually on IRS Form 990. -
                                                     is subject to an annual financial audit and
                                                                's accounting systems, under the
oversight ofthe organization's Board of Directors, meet tax-exempt non-profit standards and
State requirements. -             s mission is to respond to the State's focus on growing its biotech
industry by providing support to manufacturers through professional and workforce training and
group purchasing offers. During the audited period, -                's in-house accounting department
maintained the        ·zation's financial information under the direction of the Chief Financial
                         70
                            The Controller is responsible for payroll, accounts payable, accounts
recei

       -          does not have a time-keeping system that tracks and individual"s daily hours
by specific projects as it is not required under Cali fornia law or necessary for the their program
operations. -           instead provides a list ofemployees and their salaries to CMTC when it
submits the expenditure repm1s.                 management systems are designed for its own
needs and CMTC has not required                 to alter these systems since -           receives no
funds from CMTC related to its                ns to the MEP program. Nevertheless, the
documentation available is fully compliant with 15 C.F.R. § 14.23

        -          s accounting staff produces a repo11 from its internal accounting system to
                                                                           71
complete the Qum1erly Report of Expenditures that it submits to C MTC. T he expenditure
rep011 includes the period ofperfonnance, contact information, and expenditures by line item,
including salaries and benefits, supplies, sub-contracts, travel, marketing printing, postage,
speaker fees, conference meals, equipment/lease, and facilities.72 The report is then reviewed
and signed by the CFO. This expenditure report also includes the period of perfonnance, contact.
infonnati on, scope of work, and breaks down the line item of salaries and benefits by name or
employee ID, employee title, salary, percent of effo11 dedicated to in-kind activities, and benefits
rate.




69
   Note: CMTC la ter de1cm)ined thai !here appears to be duplicative infonnation in the two annual expenditure 

repo1ts submiued by                 . See supra Section IV.C., Costs Prior to Award Period. A~ such. CMTC 

understands the need to adjust the relevant rcpol1ing periods and intends to do so as soon as possible. 

70
   Note:                is no longer ~erves as            s CFO. 

71
   See                            Expenditure Reports.
72
   See Exhibit I9.                      Expenditure Reports.


CMTC Response to Draft Audit Report No. DEN-1 8572                                                                 21
                              c.


        As a 501 (c)(3) tax exempt organization, -         complies with the accounting standards
applicable to nonprofit organization and is subject to an annual audit. -       operates an office
in downtown Los Angeles and assists manufacturers in obtaining federal, state and regional tax
credits as well as city permits. -       also supports manufacturers by encouraging companies
to remain in California and assisting with relocation and site selection.

        -        has an in-house accounting department that keeps track of the organization's
financial infonnation. The accounting standards meet State requirements and are subject to the
oversight of the organization's board of directors. The Chief Financial Officer, -        · also
serves as the corporate treasurer. The accounting department bas various personnel responsible
for payroll, accounts payable, accounts receivable, and general accounting.

       ~ses a manual time-keeping system that records hours worked for the day.
-        doesnot track specific work activities as there is no business need to do so for salaried
personnel. The purpose of the time sheet is to identity hours worked for payroll purposes and to
record time-off information for the employees of the organization. -          uses the ADP
Payroll System to process their payroll. Manual timesheets are completed by the employees
every two weeks and submitted to their supervisor. The supervisor reviews the hours worked or
time-off reported and manually signs the timesheets before submitting them to the payroll
department for processing. This information is provided in the Report of Expenditures for In­
kind Match to CMTC. 73

        The report includes the period ofperfonnance, contact infonnation, and expenditures by
line item, including salaries and benefits, supplies, sub-contracts, travel, printing, postage,
speaker fees, conference meals, equipment/lease, and faciliti es. The expenditures are taken from
their accounting system and the report is signed by the Vice-President of Business Assistance
and Development,                  , confirming the costs are allocable to the MEP program and are
actual                          requesting employees to allocate time specifically to
manufacturing,                  estimates the percent of effort spent on providing services to
manufacturers based on her personal knowledge of her staffs activities.

                             d.

       •    is a private, for-profit subsidiary o                    . DUling the audited period,
•    and CMTC conducted a series of workshops directed at improving the energy efficiency of
California manufacturers. The workshops were titled "Energy Savings Strategies," and were
comprised of five modules including Lean Manufacturing, Value Energy Stream Mapping
(VeSMTM), Benchmarking & Best Practices, Energy ~{ficiency Strategies .for Competitive
Ad1•antage and Tying It All Together. In addition, .     and CMTC provided a unique energy
savings program specifically tailored fo r manufacturers in southem Cali tornia.



73
     See Exhibit 20. • • • Quarterly Expendin1re Reports.



CMTC      Rcspon~e   to Draft Audit Report No.   DEN-ll~572                                     22
         •     completed a Report of Expenditures for In-kind Match only reporting personnel
expenses. The personnel costs claimed only involved providing services to manufacturers. The
report included the period of performance, contact infonnation, and expenditures      line item,
including salaries and benefits. The personnel expenditures were signed by
IIIII,  the Manager of Business and Economic Development at ~ith direct knowledge of
the activities of the personnel. The report also includes the period of performance, contact
information, employee ID, employee title, salary, percent of effort dedicated to in-kind activities,
                   74
and benefits rate. Personnel expenses were allocated by staff members that specifically
provided services to manufacturers in a reported period.

                             e.

        -         is a stand-alone non-profit economic development agency based in the City of
San Diego. It is a 50l (c)(6) tax-exempt organization and as such, it complies with regulations
and accounting standards applicable to non-profits, including an annual audit. -           operates
an office in downtown San Diego and has employees that offer free Business Assistance
services, such as international trade assistance, site selection, workforce resources, incentive
packages, pennits, licenses, zoning or local industry analyses for companies expanding or
relocating in the City of San Diego.

       The -           has an in-house accounting department that keeps track of the
organization's financial infonnation and which is designed to meet Stale requirements and the
Board of Directors oversight of the organization. During the audit period, the Chief Financial
                    75
Officer, -         , was in charge of payroll, accounts payable, accounts receivable and
general accounting. -           uses the Sage MIP Accounting system which is the same
accounting system used by CMTC.

        -        has a unique time-keeping practice. They complete hourly timesheets four times
a year and only for employees who are paid through certain County and State funding sources.
The timesheets do not report hours charged to specific proj ects. Some salaried or exempt
employees are not required to complete timesheets. -             uses Paychex Payroll System to
process their payroll. Paychex Payroll is a third party payroll service provider similar to
Automatic Data Processing (ADP).

        -         completes a Report of Expenditures for In-kind Match each quarter.76 The
report includes the period of perfonnance, contact infonnation, and expenditures by line item,
including salaries and benetits, supplies, sub-contracts, travel, printing, postage, other speaker
fees, conference meals, equipment/lease, and facilities. The expenditures are generated by their
accounting system and the rep01t is signed by the Accounting/Operations Manager. The
expenditure repot1 also includes the period ofperfonnance, contact infonnation, scope of work,
and breaks down the line item of salaries and benefits by name or employee lD, employee title,
salary, percent of effoti dedicated to in-kind activities, and benefits rate. The CFO at the time
manually estimated the eftort and expenses spent on providing services to manufacturers.

1
~ See Exhibit 21.         Quarterly Expenditure Reports. 

H    Note:             no longer serves as the Chief Financial Officer for· · ·   

76
     See Exhibit 22.         Quarterly Expenditure Reports. 



CMTC Re~ponse to Drat1 Audit Report No. DEN- 18572                                               23
          2.          CMT C Review of Thir d Party In-Kind Contributors Expenditure Reports

        After each third party in-kind contributor submits its Report of Expenditures, CMTC
reviews the repott against the budget and determines whether 1) the manufacturing companies
served are identified and that the effort assigned to the work is reasonable and consistent with
past practices; 2) the partner has included authorized signatures; 3) the repott period does not
overlap any reports the partner previously submitted and that the period is covered by the signed
Memorandum of Understanding 77; and 4) the expenditure report is filled out and includes the
percentage of effort. CMTC also ensures that the total salaries and benefits reported agree with
the Report of Expenditures. CMTC compares the total in-kind match reported against the in­
kind budget amount approved by NIST to ensure that CMTC does not use more than the
approved amount tor cost sharing purposes. Once the report period and amount are verified
against the approved budget, the CFO and Controller review and sign off on the report,
approving the use of the submitted expenditures for cost sharing purposes against the NIST
grant. CMTC's Financial Analyst recorded the expenditures in the General Ledger as in-kind
match, and included the amount in the quarterly financial reports submitted to NIST on SF-269,
line(e).

                 3.       Improvements to Record-Keeping

        Since the OIG audit, CMTC has made several improvements to the manner in which it
evaluates cost share contributions from third patty contributors. Representatives from CMTC
now conduct an on-site review at least once a year to ensure that adequate controls are in place to
verify that the reporting meets the allowability requirements. CMTC first determines whether the
costs are documented and vctificd based on general ledgers, underlying documentation, invoices,
and checks from the partner. CMTC then reviews copies of the detailed general ledger for all of
the reported in-kind match expenditures. CMTC evaluates whether the costs are included as a
cost sharing commitment related to any other Federal project or program. CMTC also checks the
audit report and interviews financial personnel to ensure that the costs are not reported for
another federal program.

        The third party contributors also utilize better methods of allocating costs towards the
MEP program. For example, CMTC conducts an annual analysis to determine the percent of
manufacturers served by -            to establish a baseline for allocability of in-kind expenditures
to the pa1tnership. This analysis determines the percentage of manufacturers (defined as
companies engaged in research and development ("R & D") and/or manufacturing of medical
related products) out of all the companies served by the organization . For example, if­
has a total of.    member companies, of which .        are in R&D or manufacturing, then . %
services the organization provided were dedicated to the MEP mission. In this case           ./o
                                                                                               percent
o-            ·s costs are detem1ined to be related to manufactUting and are then submitted to
CMTC as in-kind cost share. Based on review meetings with officials at -
of companies -
                                                                                        · about
                           served were in R&D or manufacturing of medical or life sciences related
                                                                                                     ./o
products. It is impo1tant to note that -
                                                                                    . /o
                                                  only rep01ts certain personnel and outreach
expenses as in-kind cost share to CMTC. This accounts for approximately              of its total

77
  Bw see supra Section IV.C. ··Costs Prior to Award Period'' (CMTC $ubsequently di~covered some overlap
between periods ).


CMTC Respon~e to Draft Audit Report No. DEN-18572                                                         24
budget. -         provides the analysis backup docum entation to CMTC tor review and
inspection. The analysis results are printed on -      s company letterhead and are signed by
an ofticial at -       who has detailed knowledge of the survey data within the organization.

         E.       CMTC FoJiowed GAAP With Respect To In-l{jnd Contributions

         The Draft Audit Report questions all the third party contributions because CMTC does
not include in-kind contributions as revenue in its audited financi al statements. The auditor
concludes that CMTC violated the cost principles because it failed to adhere to GAAP, citing
Statement of Financial Accounting Standards No. 116, Accountingfor Contributions Received
and Contributions Made ("F AS No. 116"). Despite the auditor's summation that the
interpretation and compliance with FAS No. 116 is clear-cut, there is a great deal of ambiguity
and debate over how to apply this Statement.78 CMTC's audited financial statements are
completed pursuant to the advice of its A-133 audit firm. It s hould be noted that one of CMTC's
financial advisors,                              is not only a partner in a major accounting firm,
but also sits on the American Institute Certified Public Accountants (AICPA) nonprofit
committee. CMTC follows GAAP pursuant to the competent professi.onal interpretation of its
finan cial advisors. In any event, the treatment of in-kind contributions was acceptable under
FAS No. 116 for three reasons: l) the in-kindcontributions are discussed in the notes ofthe
aud ited financial statements, 2) under the interpretation of the scope ofFAS No. 116, the in-kind
contributions should not have been recognized as revenue in CMTC"s audited tinancial
statements, and 3) even if the in-kind contributions were within the scope of FAS No. 116, they
would not be recognized pursuant to paragraph 9 ofF AS No. I 16.

        The fact that the in-kind contributions were not recognized as revenue in the financial
statements is inconsequential as to whether the costs were allowable third patty in-kind
contributions. Even the auditor notes that the in-kind contributions were included in the notes of
                                                      79
the financial statements and not completely ignored.

        The auditor cites the general rule ofFAS No. 116, to recognize the value of in-kind
contributions as revenue, but fails to discuss the scope of the statement, which significantly
limits the general rule. so One such exception to the rule is if the "reporting entity acts as an
agent, trustee, or intermediary, rather than as a donor or donee."8 t Under the MEP program, the
ultimate donees are the small- and medium-sized manufacturers benefiting fi·om the services, and
theretore, CMTC would not need to recognize the value of goods and services in CMTC's
fin ancial statements since the services were never provided to CMTC.

         The rule conceming contributions of services is as follows:

                  Contributions of setvices shall be recognized if the services
                  received (a) create or enhance nonfinancial assets or (b) require


M  See Exhibit 23. FAS No. 116 (indicating in the notes that many non-profits do not recognize in-kind contributions 

as revenue and the interpretations ofthis Statement are inconsistent). 

"~'~See Orati Audit at 5. Se<' also Exhibit 24. CMTC Audited Financial Statements. 

~0 See FAS No. I I 6 pam. 1 

se Sel! FAS No. I 16 at 5 para. 4. 




CMTC Response to Dm fi Audit Report No. DEN-ll~572                                                                25
                  specialized skills, are provided by individuals possessing those
                  skills, and would typically need to be purchased if not provided by
                  donation. Services requiring specialized skills are provided by
                  accountants, architects, carpenters, doctors, electricians, lawyers,
                  nurses, plumbers, teachers, and other professionals and craftsmen.
                  Conhibuted services and promises to give services that do not meet
                  the above criteria shall not be recognized. FAS No. 116 para. 9.

        Even if an in-kind contribution is within the scope ofFAS No. 116, it is still not clear
whether the contribution should be recognized as revenue in the financial statement. There is
pariicular ambiguity under paragraph 9 of the statement explaining exceptions in which in-kind
contributions of services should not be recognized as revenue. Much ofthe in-kind contributions
from CMTC partners came in the form of services.

         The notes of the statement list five examples related to contributions of services, three of
the five in which services should not be recognized as revenue. 82 Under this paragraph, because
the in-kind conhibutions do not affect CMTC assets, those contributions would not meet the
criteria of the first requirement under paragraph 9. Third party in-kind contributions to CMTC
also fail to meet the second prong in that they are not services in which CMTC would pay for
had they not been donated. CMTC did not have sufficient funds to supp01i all the activities of its
pminers. Fortunately, CMTC has historically benefited from contributions of third parties to
meet its statutory obligations at no cost. 83

        The auditor's interpretation ofFAS No. 1 16 is inaccurate however, even if the auditor's
interpretation were correct, the remedy would be to revise the financial statements to move the
infonnation to the revenue p01iion, not to disallow the costs in their entirety.

         F.       Additional Funds Available For Cost Share Contribution

         CMTC's agreements with each of its partners actually resulted in more matching costs
than CMTC needed under its cooperative agreement. Pursuant to NIST's direction and to avoid
drawing down more funds than necessary, CMTC only reports the cost share necessary to meet
its cost share requirement under the award. Moreover, the SF-269 will not allow recipients to
repo1i excess match without affecting the amount of funds to be drawn down in a given period.
NeveJiheless, CMTC maintains records of all cost share reported by each of its pminers in their
qumierly expenditure reports, even if ultimately that cost share is not rep01ied to NIST.
Therefore, in addition to rep01ied matching costs, if there is a disallowance for one group of
                                                                    84
costs, the excess match can substitute for other disallowed costs. The Excess Match for the
Audit Period, including partners that were not examined as pmi of the audit, is listed below:


x~ See id at para. 201-206 (Examples 11-15 illustrate examples of when contributed services should be recognized)
~> See id. at para. (noting that the non-profit agency should not recognize as income the services of a telemarketing
firm's services when it had previously utilized the services of volunteer students).
84
   See GAO Red book Vol II, Third Ed. p.I0-113 (stating that ·'[a l grantee may generally substitute other allowable
costs for costs which have been disallowed. subject to any applicable cost ceiling. If additional funds become
available as the result of a cost disallowance, those funds should be used to pay any "excess" allowable costs which
could not be paid previously because of the ceiling.").


CMTC Response to Draft Audit Report No. DEN-18572                                                                   26
 Excess Match Available to be applied for 7/ 1/05 to 6/30/06



                                                                   --
 V.
                TOTAL AVAILABLE FOR FY06 


            QUESTIONED EXCESS PROGRAM INCOME
                                                                   -
        The Draft Audit Report takes issue with CMTC's NIST-approved carry-forward of
-            · First, the Draft Audit Report states that CMTC did not need the carry forward to
meet its non-federal expense requirements. Second, the Draft Audit Report suggests that the
carry f01ward plus projected program income, which could only have been estimated at time of
carry over of program income as it had not yet been earned, would result in a program income
balance of approximately $12,000,000. We will address each of these issues in tum.

        CMTC received NIST approval for a CaiTy forward of ~ in program income
during the audited period. Despite the auditors' concerns about the program income balances,
CMTC simply followed the guidance given to MEP Centers about maintaining a cash reserve. 85
Authorized NIST program staff conectly provided guidance to CMTC and other MEP Centers
that under cost-reimbursement cooperative agreements the MEP Centers may retain unexpended
program incom e (" UP!" ) and that it is a source of"reserves." 86 Centers were instmcted to
maintain a reserve to support the Center during pe1iods of inadequate funding or to accommodate
cash flow. Having a cash reserve allows MEP centers to weather fluctuations in the economy
without any loss of services to the manufacturing community. Further, CMTC's financial
position is unique in that it receives no support from the state ofCalifomia. Thus, CMTC's cash
reserve is vital to its continued existence and to meet the extraordinarily large two-thirds non­
federal cost share requirement. CMTC complied with the MEP General Tenns and Conditions
by obtaining approval from NIST to carry over the UPI. Thus, any concern expressed in the
Draft Audi t Report with program income carry over lies with NIST policies and administration,
not with CMTC's actions.

        The Draft Audit Report asserts that with projected program income for the award period
beginn ing July I , 2006, CMTC's program income balance will top $1 2,000,000. However, the
actual carry over amount to the 2007 award year was approximately 15% less than the requested
                                  87
carry over, totaling$ -          . During the 2007 award year, there was a slowdown in
business resulting in loss of revenue to the MEP program . As a result, program income was
expended to cover the deficit in the subsequent award period and the program income reserve




~~ See Exhibit 25, PowerPoint Presentation by Mike Simpson.
86   Jd.
87
     See Exhibit 16 at 7-12. SF 269 (June 30. 2006)


CMTC Response to Draft Audit Report No. DF.N- 18572                                           27
                             88
 dropped to -         . The continued economic decline has resulted in slowed business, and
 the program income has dipped to ~ as of June 30, 2009.89

        The Draft Audit Report states that there was "significant inconsistency between program
income reported to NIST and CMTC's audited financial statements." Draft Audit Report at 6.
As noted above, the amount canied over from FY06 was ~ less than the amount
approved by NIST. The ~ figure was merely an estimate for the purposes of filling in
CMTC's NIST Operating Plan for the 2007 award year because final figures were not yet
calculable. The MEP program expenses include capitalized expenses that are reported as
program income as a whole to N IST, but amortized under GAAP principles. Thus, the net assets
reported by CMTC on its financial statements would not match the amount ofUPI reported on
the SF-269. The Draft Audit Report fails to recognize this fundam ental difference between
program income reported on the SF-269 and GAAP information contained in CMTC's financial
statements.

          Finally, the Draft Audit Report also notes that CMTC's audited financial statements for
FY06 do not show any "restricted" assets. On the advice of its
auditor, CMTC did not label any of its assets as restricted. However,         rev1ew
discussion has led CMTC to determine that the program income carried over should be noted on
the Financial Statement as "restricted" funds and will direct the A-133 auditor to do so in the
fu ture. 90

VII.     CONCLUSION

        CMTC is a strong MEP Center with successful in-kind and subrecipient relationships.
With the assistance of its partnering organizations, CMTC provides services, including skilled
instruction, consulting, and training to small- and medium-sized manufacturers in the state of
California.

        CMTC consistently followed the direction ofNIST and the applicable statutes and
regulations in carrying out its MEP program. The auditor's assertion that the subrecipient costs
were based on estimates, rather than actual expenditures is incorrect. With the exception of
cosmetology salaries and direct costs, which were removed from the costs claimed, all of
Cerritos' expend itures were based on actual costs. By agreement between the parties, CMTC
accepted responsibility for ensuring that CeJTitos' expenditures were reasonable, allocable, and
allowable to the MEP program. To verify Cerritos' expenditures, CMTC received quarterly
expenditure reports from Cerritos that were then compared to the expenditures in CeJTitos'
gcneralledger and sampled purchase orders and invoices. Cerritos readily opened its books to
CMTC and provided hundreds of pages of documents to the auditors in support of costs claimed,
none of which were cited in the Draft Audit Report. Thus, the auditor's questioning of the entire
amount of costs claimed by Cerritos because they were not documented is without merit.



s~ See Exhibit 16 at 15-19. SF 269, (June 30, 2007). 

~See Exhibit 26, SF 269 (June 30. 2009). 

90
  See Exhibit 2C. Amendment # 3 to Award (2006)(approving requested carryover amount) and Exhibit 27. CMTC 

Excess Program Income Carryover Request Letter to MEP and Grant~ (2006). 



CMTC Response to Dratl Audit Report No. DEN-18572                                                        28
        The auditors' questioning of the validity ofCMTC's relationships with t1ve of its third­
party in-kind contributors is likewise inaccurate. The auditor contended that the in-kind
conttibutions were not donations but merely the regular activities of the partners, that they failed
to meet the documentation and reporting requirements under the General Terms and Conditions,
that portions of cost share were incurred ptior to the award period, and that the costs were not
documented in accordance with GAAP Principles. However, each of the auditors' contentions is
incorrect. First, the auditor misunderstands the nature of the MEP program and fails to recognize
that the contributions were made not to the CMTC, but to small- and medium-sized
manufacturers. Second, the contributions met the requirements for cost share under 15 C.F.R. §
14.23. They should not be subject to retroactive, unilateral tenns imposed in the middle of an
award period and non-compliant with Part 14 and the cost principles. Third, while CMTC
concedes that there were some pre-award costs, no funds are due back because CMTC has
additional cost share from its partners that could be substituted for the pre-award costs. Finally,
CMTC complied with GAAP as evidenced by its correct reporting of in-kind contributions in its
audited financial statements.

         Finally, the auditor's criticisms ofCMTC's management of its program income are
flawed. CMTC properly sought and received NIST approval to carry forward its excess program
income. The "reserve" created by the program income carry over ensures CMTC's continued
ability to provide vital MEP services in California in a difficult economic climate. The auditors
noted an inconsistency in CMTC's program income reporting. The inconsistency resulted
because CMTC's financial statement includes non-MEP expenses and non-cash expenses such as
vacation accrual, which would not be reported on the SF-269. Finally, CMTC acknowledges
that program income must be spent in furtherance of the MEP program. To support our
arguments, we have enclosed with this Response necessary supporting documentation for our
arguments.




CMTC Response to Draft Audit Report No. DEN-18572                                                29
                                     TABLE OF EXHIBITS 


   l. America Competes Act, Pub. L. No. 110-69, Sec. 3003, 121 Stat. 587 (2007)
   2. Cooperative Agreement Award No. 70NANB5H I 18 1
         A. Amendment #I
         B. Amendment #2
         C. Amendment #3
         D. Amendment #4
         E. Amendment #5
         F. Amendment #6
         G. Amendment #7
         H. Amendment #8
         I. Amendment #9
   3. MEP General Terms and Conditions
         A. June 2005
         B. April 2006
         C. November 2009
   4. MEP Operating Plan Guidelines
         A. March 2005
         B. March 2006
         C. February 2007
   5. CMTC 2006 Operating Plan
   6. CMTC 2007 Operating Plan
   7. Cenitos Budgets
   8. Cenitos Quarterly Expenditure Repo1is
         A. 07/05-09/05
         B. 10/05-12/05
         c. 01/06-03/06
         D. 04/06-06/06
           E. 07106-09106
           F. 10/06- 12/06
         G. 01 /07-03/07
   9. Cerritos Subrecipient Agreements
   10. CMTC Written Policy for In-Kind Contributions
   11.                                         Memoranda of Understanding
   12.
   13.
   14.
   15.
   16.
                Community College District Administrative Regulations
                     Expenditure Submissions
         A. Summary of In-Kind Contributions
         B. Q uarterly Expenditure Rep01is
   19. -         Expenditure Submissions
         A. Summary of In-Kind Contributions



CMTC Response to Draft Audit Report No. DEN-18572                                 30
            B. Quarterly Expenditure Reports
    20. -        Expenditure Submissions
            A. Summary of In-Kind Contributions
            B. Quarterly Expenditure Reports
    2 1. •    Expenditure Submissions
            A. Summary ofln-Kind Contributions
            B. Quarterly Expenditure Reports
    22. -         Expenditure Submissions
            A. Summary of In-Kind Contributions
            B. Quarterly Expenditure Reports
    23. Statement of Financial Accounting Standards No. 11 6, Accounting for Contributions
         Received and Contributions Made ("FAS No. J16")
    24. CMTC Audited Financial Statement
            A. 2005 Audited Financial Statements
            B. 2005 Report on Federal Awards
            C. 2006 Audited Financial Statements
            D. 2006 Report on Federal Awards
            E. 2007 Audited Financial Statements
            F. 2007 Report on Federal Awards
    25. PowerPoint Presentation by                 Systems Operation Director
    26. CMTC SF 269 (June 30, 2009)
    27. CMTC Excess Program Income Carryover Request Letter to MEP and Grants (2006)




                                                                                                  !
                                                                                                  !   0




CMTC Response to Draft Audit Report No. DEN-1 8572                                           3I
